<html>
<title> - STRENGTHENING U.S. DIPLOMATIC CAPACITY IN AFRICA</title>
<body><pre>[Senate Hearing 111-27]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-27
 
                     STRENGTHENING U.S. DIPLOMATIC 
                           CAPACITY IN AFRICA

=======================================================================



                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 21, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
50-025                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            RUSSELL D. FEINGOLD, Wisconsin, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire        JAMES E. RISCH, Idaho

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Feingold, Hon. Russ, U.S. Senator From Wisconsin.................     1


Isakson, Hon. Johnny, U.S. Senator From Georgia..................     3


Lyman, Hon. Princeton N., Adjunct Fellow for Africa Policy, 
  Council on Foreign Relations, Washington, DC...................    11

      Prepared statement.........................................    13


Pickering, Hon. Thomas R., Former Under Secretary of State for 
  Political Affairs, Department of State, Washington, DC.........     4

      Prepared statement.........................................     6
Wolpe, Hon. Howard, Director of Africa Program and Project on 
  Leadership and Building State Capacity, Woodrow Wilson Center, 
  Washington, DC.................................................    19

      Prepared statement.........................................    21

                                 (iii)



                     STRENGTHENING U.S. DIPLOMATIC 
                           CAPACITY IN AFRICA

                              ----------                              


                        TUESDAY, APRIL 21, 2009

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russ Feingold 
(chairman of the subcommittee) presiding.
    Present: Senators Feingold, Kaufman, Lugar, Corker, and 
Isakson.

           OPENING STATEMENT OF HON. RUSS FEINGOLD, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. This hearing will come to order. On 
behalf of the Senate Foreign Relations Subcommittee on African 
Affairs, I welcome you all to this hearing, entitled 
``Strengthening U.S. Diplomatic Capacity to Anticipate, 
Prevent, and Respond to Conflict in Africa.'' I'm honored that 
I'll be joined by the ranking member of the subcommittee, 
Senator Isakson, and I will ask him to deliver some opening 
remarks when he arrives.
    Today's topic is one that has come up again and again in 
the hearings of this subcommittee, in my own travels throughout 
Africa over the years. I've seen, firsthand, the dedication of 
our diplomats, their resourcefulness, and their hard work. I've 
also--but, I've also seen how they are overstretched and lack 
the necessary resources and authorities to fully pursue 
comprehensive strategies.
    The gaps in our diplomatic capacities are especially felt 
when it comes to work on defusing regional conflicts, a 
priority set by the National Security Strategy of 2006. As that 
strategy notes, these conflicts often spread or devolve into 
humanitarian tragedies, as we've seen in Congo, in Sudan, and 
can be exploited by outside parties, such as al Qaeda, as we 
are seeing, to some extent, in Somalia.
    Defusing conflict starts with anticipating them beforehand 
so that we are not constantly reacting.
    At his confirmation hearing, CIA director Leon Panetta said 
he is concerned that we aren't allocating enough intelligence 
resources to various parts of the world, including Africa. 
While we must address these gaps, we must also recognize that 
much of the information our country needs on Africa, everything 
from civil conflicts and instability and potential terrorist 
safe havens, can sometimes be obtained overtly through 
increased diplomatic reporting. I've been concerned, for a long 
time, that we have little to no political presence in key parts 
of Africa, such as the Central African Republic, Northern 
Nigeria, or Eastern Congo. As a result, we lack eyes and ears 
to gather information and anticipate emerging crises or fully 
understand existing ones.
    In addition, we need to help our diplomats get outside 
their embassy compounds in foreign capitals to interact with a 
range of non-national governmental actors. This was a goal of 
the Bush administration's transformational diplomacy 
initiative, but their rhetoric was not followed by much action. 
We need to make good on that vision, which includes ensuring 
our ambassadors in Africa have sufficient authority and 
flexible resources, and looking to establish more permanent 
out-of-embassy posts. This must all be part of an overall 
integrated interagency collection-and-analysis strategy.
    Last year, Senator Hagel and I introduced legislation to 
establish an independent commission to address the lack of such 
a strategy. This legislation was passed by the Intelligence 
Committee last year. And, although Senator Hagel has retired, I 
intend to reintroduce this legislation this year, and hope that 
my colleagues on this committee, the Foreign Relations 
Committee, will also support it.
    Now, once we get the information, the next question is, 
What do we do with it? I've supported the use of special envoys 
in different cases, but we need to ensure that they are used 
effectively and remember that they are just a short-term 
enhancement to our diplomacy. In the long term, we need to 
rebuild and reposition our diplomatic capabilities to engage in 
conflict prevention and peacebuilding.
    At the same time, we can't do this all ourselves, nor 
should we. The State Department's strategic plan for 2007-2012, 
emphasizes regional solutions to regional problems. To that 
end, we need to look at how we can better partner with strong 
regional actors, such as Nigeria and South Africa, and help 
Africa's regional organizations develop new capabilities to 
address conflict.
    I probably do not need to remind anyone that, over the past 
few weeks, there's been increasing concern about the spate of 
piracy attacks off Somalia's coast. I've been worried, for some 
time, about the piracy problem, which is an outgrowth of the 
collapse of Government in Somalia, and I'm working with the 
chairman of the full committee to hold special piracy and 
Somalia-related hearings as soon as possible. But today's 
hearing is very relevant because it addresses our ability to 
address this and other problems, which is, in fact, handicapped 
by inadequate tools and already strained capacity. The 
administration must make a more serious and sustained 
diplomatic push to stabilize Somalia, including appointing a 
senior envoy for the Horn of Africa. But, these obstacles may 
make that even more difficult.
    Finally, I hope to hold a confirmation hearing, as soon as 
possible, on the nomination for Assistant Secretary for African 
Affairs. I know, from conversations with him, that Ambassador 
Carson recognizes the importance of strengthening our 
diplomatic capacity, and I hope today's hearing will provide 
some recommendations for him to consider, if confirmed.
    Now, I certainly feel that we have an all-star lineup of 
witnesses here with us today, all with intimate knowledge and 
extensive experience with their diplomatic capacity.
    First, we'll hear from Ambassador Thomas Pickering, the 
former U.S. Under Secretary of State and former Ambassador to 
the Russian Federation, India, Israel, El Salvador, Nigeria, 
the Kingdom of Jordan, and the United Nations. Time magazine 
has called him ``the five-star general of the diplomatic 
corps.'' Ambassador Pickering now serves as the chairman of the 
board of the American Academy of Diplomacy, and recently was a 
member of their Genocide Prevention Task Force.
    It's, of course, an honor to have you with us today.
    We'll then hear from Ambassador Princeton Lyman, former 
U.S. Ambassador to South Africa and Nigeria, and former 
Assistant Secretary of State for International Organization 
Affairs. Ambassador Lyman is now a senior fellow at the Council 
on Foreign Relations, and has written and commentated 
extensively on developing a more strategic U.S. approach to 
Africa. And I have benefited tremendously over the years from 
his insights and his knowledge.
    And I'm very glad to have you here today, as well.
    Finally, we'll have Dr. Howard Wolpe, a man who knows what 
it feels like to be in my seat up here. Congressman Wolpe 
represented Michigan's 3rd District from 1979 to 1993, and, for 
many of those years, served as the chairman of the House 
Subcommittee on African Affairs. In addition, though, Dr. Wolpe 
brings the unique experience of having served as a special 
envoy; during the Clinton administration, a Presidential envoy 
to the Great Lakes region of Africa. He now works as the 
director of the Africa Program at the Woodrow Wilson Center, 
and director of its Project on Leadership and Building State 
Capacity.
    I am grateful to all three of you for joining us here 
today, and I look forward to hearing your brief testimony and 
having a lively discussion. I note, with a great deal of 
pleasure, that Senator Corker has joined us today.
    And now, of course, it's my pleasure to turn to the 
distinguished ranking member, Senator Isakson, for his opening 
remarks.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Senator Feingold, and 
thank you very much for calling this hearing today. I want to 
welcome the witnesses. I won't make a long statement, except to 
repeat what the chairman has heard me say, and others, before.
    I think, in the 21st century, Africa is the continent for 
the United States of America, and I think it is very important 
for us to understand what our diplomatic capacity is, and to 
strengthen it wherever we can. It is a very diverse, very 
interesting, very rich, and very challenging continent. Senator 
Corker and myself will be going to five African countries at 
the end of May to try and raise our presence there, and to 
convey to those countries our interest in them and the entire 
African continent.
    We appreciate your being here. I am familiar with each and 
every one of you. Your reputations precede you, and I'm looking 
forward to learn a great deal from you, and appreciate your 
willingness today to make a commitment to this committee.
    Thank you, Mr. Chairman.
    Senator Feingold. I thank the ranking member for his 
statement and for his very cooperative approach to, and role 
on, this committee.
    Unless Mr. Corker has a comment, I would now turn to 
Ambassador Pickering for his comments.

 STATEMENT OF HON. THOMAS R. PICKERING, FORMER UNDER SECRETARY 
     OF STATE FOR POLITICAL AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Pickering. Thank you, Mr. Chairman, Senator 
Isakson, Senator Corker. And it's a pleasure to be with you, 
and an honor to testify before this subcommittee on the 
important subject of anticipating, preventing, and responding 
to conflict in Africa. I'm delighted to join two old friends 
and colleagues, to my right, in this testimony, and I have 
written testimony, which I hope will be useful in the record.
    Senator Feingold. Without objection.
    Ambassador Pickering. Today, I want to do two or three 
things in my testimony. I want to sketch out the nature of 
conflict and some of the issues which lead to conflict in 
current-day Africa. I want to point out some of the steps and 
ideas that will contribute to anticipating and preventing--
responding--conflict in the continent. And last, I want to try 
to answer some of your specific questions.
    With respect to conflict, while Africa, over the years, has 
had more than its share of conflicts and problems, which might 
lead to further strife, a careful review of some of the current 
issues and problems in Africa will set out some of the kinds of 
issues which Africans and those outside the continent 
interested in resolution will now face, and will face in the 
future. In this testimony, I won't be able to review all of the 
issues; however, it draws heavily on the work of the 
International Crisis Group, where I am cochairman of the board, 
and I believe I can provide information broadly representative 
of the current questions and issues to set the stage. I then 
discuss a number of conflicts, including Somalia, the coming 
elections in South Africa, and other things.
    Certainly, the two big questions for us at the moment 
remain the Congo, which has undergone some dramatic change. 
Eastern Congo has been the subject of a longstanding conflict 
with Rwandan-backed and -supported groups, and the army of the 
Congo Republic, among other things. Rwanda has recently shifted 
its position, and this has led to some political change, as 
well as to some change in the region, and it's called, I think, 
for even further work on behalf of the peacekeepers and, 
indeed, those who are dealing directly with the political 
problems in the Eastern Congo.
    The Sudan, if anything, is more complex. As you know, 
President Omar Bashir has been indicted by the International 
Criminal Court. And Darfur remains a terribly troubled and 
extremely difficult problem, and the issue is further 
complicated by the fact of the North-South Peace Agreement and 
the pending referendum, in a couple of years, which will decide 
whether the country stays unified or divided.
    All of these issues, and many more, indicate that increased 
capacities and activities of the United States and others can 
play a useful role.
    First is the collection of intelligence, which you just 
have mentioned. Africa has traditionally been seen only as a 
peripheral part of U.S. strategic interests, even at the height 
of the cold war. And weak intelligence collection, I think, and 
weak analysis, has tended to characterize the Africa scene. 
Embassies were in the forefront of collection, and remain so 
today, and their reporting, as you noted, Mr. Chairman, remains 
very, very important to move the question ahead.
    A second set of capacities relates to our diplomatic 
toolbox, if I can call it that way. We must have experienced 
personnel, trained in local languages, knowledgeable and ready 
to move, to deal with these issues in order to pick up the 
opportunities that are provided to us by political openings, 
and specialized teams ready and able to deploy could help us 
with a number of the problems in Africa over the years.
    Anticipating, preventing, and responding to conflicts 
requires active and effective public diplomacy, and I'll point 
out some of the ways in which this might be improved.
    Similarly, foreign assistance, both humanitarian and 
developmental assistance, has diminished over the years, and 
this has further exposed us to vulnerabilities with respect to 
our friends in Africa and conflicts and tensions that might 
hurt, there.
    I think, finally, our capacities in similar areas, the 
military area, among others, are important. A document called 
the Foreign Affairs Budget for the Future, prepared in 2008 by 
the American Academy and the Stimson Center, provides for a 
number of very, very important ideas that might help. It helps 
to strengthen our core diplomacy by asking for another thousand 
positions, at a cost of $510 million, between now and 2014. It 
seeks to engage nontraditional actors, the nongovernmental 
organizations. It looks forward to 100 positions in dealing 
with multilateral diplomacy, 20 additional to help shape 
international law, 80 in the economic area, and 175 in 
interagency coordination. Not all of these would be devoted to 
Africa, but my view is that Africa should receive more than its 
proportionate share.
    Similarly, it suggests that ambassadors should have funds 
to deal with crisis, perhaps up from the current 25,000 to 
$250,000 per ambassador, as a way to empower the ambassador on 
the scene to deal with some of the questions that are out 
there.
    In public diplomacy, it recommends a major increase in 
personnel--but, even more important, 100 percent increase in 
academic exchanges, 50 percent in visitor grants, 25 percent in 
youth exchanges--as ways to address, and indeed face, some of 
the underlying problems that lead to tension and conflict.
    Foreign aid personnel have declined, over the last 25 or 30 
years, from 4,300 to 2,200. And this particular approach 
recommends significant increases in direct-hire foreign aid 
personnel to avoid the notion that the aid agency has become a 
contract management operation and not actually engaging.
    Stabilization and reconstruction, both before and after 
conflict, are extremely important, and here it recommends 562 
positions plus two reserve corps of 2,000 each, a bill which 
has already moved through the House and, I believe, still 
pending here in the Senate. But, these are important steps, 
obviously, to strengthen the capacity of our diplomacy to move 
these particular questions ahead.
    You have asked a number of questions, and I will just 
briefly respond, in the remaining time, to a few of them.
    One, Do the State Department and the international 
community have sufficient capacity to anticipate long-term 
threats and genocide? The genocide report says no, and it 
recommends both increases in the executive branch capacity to 
analyze and follow these issues, and, as well, a special 
interagency committee to remain on the alert, to signal, early, 
when issues may well descend to that kind of tragedy.
    What additional programs, expertise, and, indeed, resources 
can add the most value? I would say mediation and negotiation 
teams, specialized in conflict prevention, a special economic 
team to assess weak and declining countries and recommend 
programs for us and our allies and friends to help to build 
against deterioration, rapid response capability and 
humanitarian and economic assistance programs, specialized 
military training programs, where necessary, to bolster and 
strengthen African peacekeeping, and conflict prevention and 
special public diplomacy efforts to deal with those issues.
    What areas are being most neglected? Somalia, the 
Democratic Republic of Congo, and Sudan, Madagascar, and 
probably, in West Africa, Nigeria.
    Do our ambassadors have sufficient authority? No. They need 
the additional funds I mentioned. The President needs to write 
a permanent executive order setting out the authorities of 
ambassadors over all U.S. Government employees, except forces 
reporting to a combatant commander, and to define the 
relationship, in the latter case, between the combatant 
commander and the ambassador.
    How do we get our folks out of the compounds and maximize 
security, still? Follow the advice in the Embassy of the Future 
report. Train our people, and equip them to deal with risk 
management, recognizing that risk avoidance is not compatible 
with their being able to do the job. This involves improved 
training in issues like surveillance detection, secure driving 
practices, physical-security best practices, and situational 
awareness.
    Thank you for the chance to testify. This is an important 
subject, and I believe that many recommendations made in a 
number of recent reports will help significantly, in Africa and 
elsewhere, to improve our capacity to anticipate, prevent, and 
respond to conflict.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Pickering follows:]

 Prepared Statement of Hon. Thomas R Pickering, Former Under Secretary 
  of State for Political Affairs, Department of State, Washington, DC

    Mr. Chairman and members of the committee, I am pleased and honored 
to be asked to testify before the subcommittee this afternoon on the 
important subject of anticipating, preventing, and responding to 
conflict in Africa.
    Over the years I had the privilege of serving our government and 
people on three separate occasions in Africa. First, I was assigned as 
a naval officer in Port Lyautey (Kenitra), Morocco from 1957 to 1959. 
Later I served as a Foreign Service officer in Tanzania as Consul in 
Zanzibar from 1965 to 1967, and then later as Deputy Chief of Mission 
at our Embassy in Dar es Salaam from 1967 to 1969. Subsequently, I was 
Ambassador to Nigeria from 1981 to 1983.
    Later I served as Under Secretary for Political Affairs in the 
State Department from 1997-2000 where I dealt frequently with African 
issues. These assignments have given me a good basis to understand 
Africa and African developments, particularly as they relate to 
conflict.
    Recently, I had the pleasure of participating in several relevant 
studies and panels including the Prevention of Genocide, a Foreign 
Affairs Budget for the Future, The Embassy of the Future, former 
Secretary of State Rice's Panel on Transitional Diplomacy, a Study of 
China, the United States and Africa among others. These helped also to 
give me a firmer understanding of the challenges and the solutions.
    Today I want to do several things in my testimony. First I want to 
sketch out the nature of conflict and some of the issues which lead to 
conflict in current day Africa. Then I want to point to some of the 
steps and ideas that will contribute to anticipating, preventing, and 
responding to conflict in the continent. Last, I want to try to answer 
some of your specific questions.
                           conflict in africa
    While Africa over the years had more than its share of conflicts 
and problems which might lead to conflict, a careful review of some of 
the current issues and problems in Africa will set out some of the 
kinds of issues which Africans and those outside the continent 
interested in conflict resolution face now and in the future. In this 
testimony it is not possible to review all of the issues. However, 
drawing heavily on the work of the International Crisis Group, where I 
am cochairman of the board, I believe I can provide information on a 
broadly representative sample of current questions and issues to set 
the stage.
    Let me begin in West Africa. Just a few months ago the important 
country of Guinea underwent a transition with the death of President 
Conte, a long-serving President of the country who had been in charge 
for several decades and ran the country almost as a personal fief. His 
death led to serious uncertainty and a difficult selection process for 
his successor. The disappearance of autocrats in Africa without any 
clear system for their successor is often a source of tension, 
uncertainty, and potential conflict. The African Union, the Economic 
Organization of West African States (ECOWAS) and friendly countries can 
play a diplomatic role in easing those transitions and avoiding 
conflict in the region. This requires good personnel in our Embassies 
and strong ambassadorial leadership from knowledgeable and experienced 
professional diplomats. A recent report setting out the needed funding 
to make up for shortfalls in these areas in the State Department will 
be reviewed in a following section of my testimony to point out some of 
the way forward.
    A second problem arose in the small country of Guinea-Bissau, a 
former Portuguese colony before its independence some years ago. This 
is not the first time Guinea Bissau has experienced troubles. Recently, 
the Army Chief was assassinated and the head of state was later killed 
during the ensuing confusion. It was clear to many observers that the 
root cause of these problems was increased drug trafficking through the 
country and the involvement of these elements in trying to influence 
governing relationships to protect their own activities. In this case, 
intelligence collection on site, strong leadership with good contacts 
and an ability to work diplomatically with other foreign 
representatives and to engage them in working together are critical 
requirements and skills need to help avoid conflict or prevent wider 
conflict.
    In Zimbabwe over recent months the extensive crises leading to 
starvation and a nearly unchecked cholera epidemic as well as economic 
collapse and a dispute over election returns and the participation of 
the opposition in governance and indeed the future of President Robert 
Mugabe who has ruled the country since independence in 1980 all 
impacted the country and raised the potential for extended internal 
conflict.
    What happened was the slow and painful working out of a potential 
solution around creating a unity government with the opposition leader 
as Prime Minister. This took a great deal of time and much political 
skill, mainly on the part of African states willing to work closely 
with both sides. It was an important example of how a political crisis 
that could lead to open conflict was resolved, at least temporarily, 
with a complex political solution involving both compromise and the 
beginning of a transition from long-time one-person rule to a more open 
leadership. The problems of Zimbabwe are a long way from full 
resolution, but efforts to build a shared leadership, introduce the 
dollar as the current currency, fight the epidemic, and open the door 
for more trade have helped.
    South Africa tomorrow will have national elections. The succession 
in the African National Congress (ANC) has been disputed and fraught 
with local difficulties. New parties have emerged to contest the ANC's 
dominance of the political scene. The United States has to watch this 
issue with care, understand the trends and issues, maintain close 
contacts and on its own, and quietly speak to all the parties to insure 
that a tense and difficult situation does not become worse. In these 
kinds of situations, the U.S. is often not the major player and must 
coordinate its actions carefully in quiet support of others who will 
take the lead.
    East Africa continues to present challenges. Many are increasingly 
worried that in Kenya, the violence of the past year will emerge again 
to dominate the scene as the two factions and tribal groups, Kikuyu and 
Luo, show signs of preparing for further violence in the wake of the 
deterioration of political cooperation. This is the time to begin to 
take action, working with the parties to prevent a worsening of the 
situation and working with others to help quietly seek and broker 
political solutions to current difficulties.
    Elsewhere in East Africa, Somalia is in more than just partial 
chaos. The resignation of a President who had little influence in the 
country is not the only sign of difficulty. Piracy off the coast has 
grown and is a current major story which will require naval and 
military cooperation as well as possible humanitarian assistance to 
deal with.
    And up until now we have not touched on the complex sets of 
problems which impact two of Africa's giant states--the Democratic 
Republic of the Congo and Sudan. Since each of these would take a 
hearing in itself, I will only touch on some of the recent highlights 
to give you an idea of some of the areas which must be addressed to 
prevent further conflict and deal with the present and potential 
humanitarian challenges.
    Congo has undergone some of the most dramatic change. Eastern Congo 
has been the locus of longstanding conflict between Rwandan-backed and 
supported groups and the Army of the Congo. Rwanda has been sympathetic 
to its fellow Tutsis in the Congo, the Banyamulenge. This situation 
recently reversed itself when apparently Rwanda concluded that its 
erstwhile Tutsi ally, General Laurent Nkunda, was causing more 
difficulties than they could handle. Rwanda changed course, arrested 
General Nkunda which led to the dispersal of his forces, joined the 
Congolese Army and played an effective, leadership role in pushing some 
6,500 former Hutu Genocidaires in the Eastern Congo further back into 
the bush. Rwanda's motives were not all benign. It was beginning to 
take heavy international heat for its relationship with Nkunda, 
including from the United States. The process was helped by an active 
role on behalf of the U.N. played by former Nigerian President Olusegun 
Obasanjo. Congo still has many unmet priority needs, including what to 
do about a feckless national army, how to extend state authority over 
the Eastern Congo, the introduction of accountability into the 
government and how to improve governance and sustain regional 
relationships in general.
    Sudan is, if anything, more complex. The indictment of its 
President, General Omar Bashir, by the International Criminal Court has 
led to retaliation from Sudan through the expulsion of 13 humanitarian 
organizations working with displaced persons and refugees in Darfur.
    The situation is further complicated by growing pressure on the 
North-South peace arrangement under which there will be a referendum in 
2011 on whether the South will separate from the North. Difficult 
questions in the likely event of such a move such as border alignment 
need to be addressed. In addition, uncertainty and tensions over Darfur 
and the indictment of the President have in turn brought about greater 
pressures on the North-South peace agreement. This will require careful 
international handling and close coordination of the various players if 
we are to avoid new conflicts breaking out in Sudan.
                 anticipation, prevention, and response
    The above review notes a number of capacities and activities which 
can play a useful role in Africa.
    First is the collection of intelligence. Africa has traditionally 
been seen as only a peripheral part of United States strategic interest 
and even at the height of the cold war and during the contention with 
the Soviet Union and China in Africa we had a weak intelligence 
presence in the continent. Embassies were in the forefront of 
collection and reporting information on events likely to lead to 
conflict. Often these were confused and unclear and our analysis 
capability was focused elsewhere and did not deal with African events 
on a timely basis. There were exceptions such as when we were 
negotiating to remove Cuban and Russian forces from Angola and Nambia 
and assisting with the independence of Namibia.
    A second set of capacities relates to our diplomatic tool box. We 
must have experienced personnel, trained in local languages, 
knowledgeable and ready to move to deal with these issues in concert 
with others. We need specialized teams ready and able to deploy to 
assist in working some of the problems in Africa. Over the years we 
have been hollowing out our diplomatic capabilities and Africa has been 
low on the list of priorities. Shortly I will talk about some much 
needed remedies.
    Anticipating, preventing, and responding to conflicts in Africa, as 
elsewhere, requires effective and active public diplomacy. In recent 
years this capacity too has been scaled back. That too needs to be 
reversed as I will suggest below.
    Similarly, our capacities in foreign assistance for both 
humanitarian needs and development have diminished quite remarkably. 
Both the total amount of funding available as well as the personnel 
trained and equipped to deal with these issues have diminished markedly 
in recent years.
    In the same fashion, until we stood up AFRICOM, we had fewer 
resources and organizational capability to provide training and 
assistance to African military forces for the peacekeeping and peace 
enforcement missions of the African Union and the United Nations both 
in and outside of Africa. While some have questioned our shift to a 
larger military quotient in our African policy, there is a small but 
significant role for our military assistance to play in preventing and 
responding to conflicts in Africa and supporting African Union 
peacekeepers. I suspect our present African Command, which I understand 
has over 1,300 staff, is considerably larger than we need and will 
convey a signal to our friends in Africa that we are militarizing our 
policy.
    In post conflict stabilization and reconstruction, we too have had 
almost no capacity until recently. The new Office of Stabilization and 
Reconstruction in the State Department has set about rectifying that 
weakness.
                         what should we do now?
    ``A Foreign Affairs Budget for the Future,'' a report prepared in 
October 2008 by the American Academy of Diplomacy and the Henry L. 
Stimson Center supported by the Una Chapman Cox Foundation provides 
some answers. It was predicated on the need to provide additional funds 
in the next five budget years to assure that the Department of State 
and AID would have sufficient personnel and training to be able to 
carry out their assigned tasks.
    Let me review some highlights because they relate directly to the 
areas singled out in the discussion above of African conflicts. While 
we did not in specific terms provide direct recommendations on the 
African area of staffing we felt strongly that it should receive at 
least its traditional proportion of the increase, and because of past 
stinting, perhaps an even larger than proportionate share.
    In traditional core diplomacy, a function which includes 
anticipating, preventing and responding to conflicts, the report 
recommends an increase in 1,099 positions over FY 2008 levels by FY 
2014 at a cost of $510.5m annually by FY 2014. The purposes served by 
this increase include funds for proactive and preventive shaping 
capabilities directly related to the purpose of this hearing, for 
precrisis conflict mediation and resolution and for the development of 
joint-planning and joint-response strategies and capabilities.
    Engagement of nontraditional actors, especially in the 
nongovernmental organization (NGO) sector is another element that bears 
directly on the issues in this hearing and additional funds are called 
for in this area.
    Increases include 100 positions in multilateral diplomacy, 20 
additional staff in helping to shape new international law, 80 staff in 
the economic area, the analysis and reporting on which is often 
critical in crises leading to conflicts, and 175 positions in all 
aspects of greater interagency coordination in the Department of State.
    In addition, it is proposed that funds made available to 
Ambassadors to deal with crises be increased from 25k to 250k, as well 
as up to $30m to deal with reconciliation conferences, civil society 
and microdevelopment projects, the ability to deploy rapid mediation 
and reconciliation teams, and similar rapid deployment capabilities for 
civil police trainers and advisers who can deal with impending civil 
strife.
    A major problem has been training. There are few positions set 
aside for this purpose and so to train people State has to pull them 
out of operational tasks. The report proposes an increase in such 
positions to 1,287 by FY 2014 at a cost of $309.8m in FY 2014 for all 
areas of training including hard languages such as Arabic, Urdu, Farsi, 
and Chinese.
    Public diplomacy has been underfunded for years. The report 
proposes an increase in personnel of 417 U.S. and 369 locally engaged 
staff by FY 2014 at a cost of $155.2m. The report also recommends 100 
percent increase in academic exchanges, 50 percent increase in visitor 
grants and 25 percent increase in youth exchanges as well as an 
expansion of English language training, 40 new oversea cultural centers 
and increased support for our existing, now privatized, Latin American 
cultural centers all at a cost of $610.4m in FY 2014.
    Foreign aid is one of our primary tools in conflict prevention and 
response. AID personnel declined from 4,300 in 1975 to 2,200 in 2007. 
AID has only five engineers to work worldwide and 29 education officers 
to cover 84 countries. AID has become a contract management agency.
    The proposal is to increase AID direct hire staff by 1,250 above FY 
2008 levels by FY 2014, offset by the reduction or conversion of some 
700 contractors at a cost for the increase of $521m by FY 2014.
    On Stabilization and Reconstruction, it is proposed to increase the 
staff at State by 562 by FY 2014 including 500 to serve as an active 
response corps to deal with conflict prevention and response actions. 
In addition, it is proposed to establish a standby corps of 2,000 
people working in Federal agencies and a civilian reserve of another 
2,000 working outside the Federal Government. The cost for these 
activities is high because it will require regular, on-going training 
as new personnel are brought on board, equipment including vehicles to 
support deployment, and security protection where security in 
particular cannot be provided by the U.S. military.
    Finally the report recommends the realignment of military 
assistance authorities so that except for places in which we are 
engaged in combat operations, the Secretary of State is responsible for 
approving the countries to receive assistance and the expenditure 
levels and the Secretary of Defense provides advice and implements the 
programs. Where combat is going on the Secretary of Defense will carry 
out the country designations and expenditure-level determinations with 
the Secretary of State's advice.
    We are pleased that FY 2009 budget decisions included a first slice 
of many of these items and that we understand FY 2010 budget proposals 
will similarly carry forward expanded requests. These should go far 
toward improving our capability in Africa to anticipate, prevent, and 
respond to conflicts.
                         questions and answers
Does the State Department or the Intelligence Community have sufficient 
capacity to assess long-term threats and anticipate potential genocide 
or mass atrocities?

    Taking a leaf from the Genocide Report cited earlier. I believe the 
answer is ``No.'' That report recommends setting up a special office to 
cover, report on, and follow these developments closely and to support 
a special interagency committee which is set up to deal with these 
issues as they emerge. While the report makes recommendations, exact 
staffing levels and arrangements should be the product of expert study 
by the agencies concerned.

What kind of additional resources, expertise or programs can add the 
most value?

    The information provided above sets out a broad response. From my 
perspective I think the following activities are most important--
mediation and negotiating teams specialized in dealing with conflict 
and conflict prevention; a special economic team which can assess weak 
and declining countries and recommend programs for the United States 
and others to deal with this aspect of deterioration which might lead 
to conflict; rapid response humanitarian and economic assistance 
programs and military training programs to be used in cases where such 
tools could play a constructive role in conflict prevention; special 
public diplomacy teams which could deploy when required or be used in 
cases where such support is required to explain to the public and the 
regional and international community our policies and actions to 
prevent or respond to conflict.

Specifically in Africa, what regions are being neglected?

    East Africa--Somalia; Central Africa--Democratic Republic of the 
Congo and Sudan; Southern Africa--Madagascar.

Do our Ambassadors in Africa (everywhere) have sufficient authority and 
flexibility to carry out their missions appropriately?

    No. They need access to larger funds ($250 thousand) to respond to 
crises; the President needs to write a permanent Executive order 
setting out the authorities of Ambassadors over all U.S. Government 
employees except forces reporting to a Combatant Commander and to 
define the relationship in the latter case between the Combatant 
Commander and the Ambassador.

How do we get our folks out of compounds and still maximize security?

     We follow the advice in the Embassy of the Future Report and train 
our people and equip them to deal with risk management, recognizing 
that risk avoidance is not compatible with being able to do their job. 
This involves improved training in issues like surveillance detection, 
secure driving practices, physical security best practices and 
situational awareness.

    Thank you for this chance to testify. This is an important subject 
and I believe that the many recommendations made in a number of recent 
reports will help significantly in Africa, and elsewhere, to improve 
our capacity to anticipate, prevent, and respond to conflict.

    Senator Feingold. Thank you very much, Ambassador 
Pickering.
    Ambassador Lyman.

STATEMENT OF HON. PRINCETON N. LYMAN, ADJUNCT FELLOW FOR AFRICA 
      POLICY, COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Ambassador Lyman. Thank you, Mr. Chairman, and to Senators, 
for this opportunity. And I, also, would like my written 
testimony submitted for the record.
    I think it's important to look at Africa, for itself, in 
analyzing the capacity of the department and the government to 
deal with conflicts. And I think comparisons with other regions 
are misleading.
    You have 48 states in sub-Saharan Africa. Many of them are 
weak, vulnerable states. Most of them are subject to the 
spillover effects of conflicts in neighboring countries. We 
have to recognize that conflicts will be part of the scene on 
the continent of Africa for decades to come. That's why every 
Assistant Secretary of State for Africa comes on board with a 
broad agenda of development, environmentalist, good governance, 
et cetera, but spends most of his or her time running from one 
conflict to another, or maybe two or three at the same time. 
The structure of the Department and its supporting structures 
just don't fit this reality.
    The Africa Bureau is smaller than the East Asia Pacific 
Bureau, smaller than the West Hemisphere Bureau, smaller than 
the Europe and Eurasia Bureau. It lacks the surge capacity, the 
capacity to mobilize teams dedicated to conflicts, like 
Ambassador Pickering talked about, teams that can work, over 
several years, seriously on each of these major issues.
    The lack of depth in the Department, its ability to cover 
important areas, can be illustrated just by Nigeria. As you 
well know, Nigeria, the most populous country in Africa, with a 
serious conflict in the Delta region, unrest in the north, with 
economic decline--yet there is only one officer assigned to the 
desk for Nigeria.
    Now, the reality is that, in Africa, a lot of the 
conflicts, or potential conflicts, occur in small countries in 
which our presence is thin. We can see potential conflict or 
existing conflict in Guinea, Guinea-Bissau, Chad, Central 
African Republic, Comoros, Mauritania, the Casamance region of 
Senegal, et cetera. We can't assume that we can put huge 
embassies or USAID missions in all these posts, but we can 
supplemental these posts with access to some of the newer 
diagnostic tools--Fund for Peace's conflict assessment tool, 
Robert Rotberg and Mo Ibrahim's governance index, a number of 
other diagnostic tools--but nothing substitutes for people on 
the ground--people with language skills, people with 
development resources, people who have travel funds, et cetera. 
And that can be backed up if the department also draws upon 
people outside the government to supplement the Department's 
own staff with the skills that are available--former Peace 
Corps volunteers and others, who can go out and help these 
missions.
    I would also call your attention to recommendations, in the 
report that Ambassador Pickering spoke of, the Foreign Affairs 
Budget for the Future, which talks of specific funding 
authorities that the Department should have in ordere to 
provide missions like the funds to bring people together, 
undertake conflict resolution, and give those missions the 
flexibility and the resources to address these problems early 
on, before they blow up into major conflicts.
    Now, when you get to the big conflicts, the major ones--the 
DRC, Sudan, Somalia, et cetera--these are complex conflicts; 
they are not only civil wars, they involve neighboring 
countries; they involve international actors. And that, in 
turn, requires worldwide diplomacy. It calls for sustained, 
full-time teams that are dedicated to these situations.
    Often we respond to these situations by naming a special 
U.S. envoy, and that can be an extremely valuable thing. But, 
an envoy who walks out around the world without backup from the 
Department--and by that, I mean a sustained staff, following 
up, sending out messages, staying in touch with allies, making 
sure that the Department is behind that envoy--that envoy is 
just not going to be able to do the job. And we have a lot of 
examples of that.
    We had a very skillful team dedicated to Ambassador 
Danforth when he was working on the North-South problem in 
Sudan. That team's long gone, and no other team has taken its 
place, in spite of Darfur, in spite of the fragility of the 
North-South Agreement. The capacity is not there to do it, and 
it has to be created if we're going to be serious about the 
Great Lakes, about Sudan, and about the looming crisis that you 
mentioned, Mr. Chairman, in the Horn.
    I would like to mention a number of other concerns. Some of 
the crises that we have in Africa go beyond Africa. When you're 
dealing with Somalia, you're dealing with a crisis that is just 
as much related to the Middle East as it is to sub-Saharan 
Africa. Yet, the Department is not well structured for moving 
across bureaus. That takes high-level leadership in the 
Department to say to the Near East Bureau, which has, 
obviously, a lot of other issues, that they've got to work with 
the Africa Bureau to help address the Somali conflict. If we 
don't have Saudi Arabia and Yemen and Qatar involved, we are 
not going to get solutions to the Somalia problems. The same is 
true in the Sahel where North African countries, outside the 
coverage of the Africa bureau, are intimately involved.
    Another problem is that the State Department is not 
organized for regional leadership in the field. AFRICOM can 
bring together northern African states and Sahelian states 
around the counterterrorism program. The Department isn't 
structured for that. I'd call your attention to a study that 
came out from the National Defense University last year which 
made specific recommendations on how the Department, in the 
field, can have comparable regional structures that can 
interface with an AFRICOM or others to deal with these issues.
    In addressing neglected areas, as you have asked, let me 
call attention to one that I think is going to need a lot of 
attention in the future, and that's the growth of 
narcosyndicates in Africa. They are spreading rapidly in West 
Africa, in Guinea-Bissau, in Guinea, and beyond. They have 
tentacles in Senegal. They're one of the most dangerous 
developments on the continent. They produce conflict, they 
produce corruption, they undermine governance. We do not yet 
have a strategy for dealing with them.
    I'll touch briefly on some of your other questions, Mr. 
Chairman, and come back to them in questions.
    Ambassador Pickering has addressed the issue of how we get 
out more, given our security considerations. I think we need to 
move our staffs out, but I am very sensitive to the 
requirements of protecting our staff in the field. I think we 
need to do it, but I think we ought to ask our staffs to 
volunteer for such duty. To move into the areas like the Niger 
Delta or other insecure areas, I think it has to be with their 
willingness, and that we provide them with the kinds of 
protection that Tom talked about. But, I think, my own 
preference would be ask for volunteers to take that on.
    You have asked about coordination with major African 
players. It's absolutely essential. There is no conflict in 
Africa that is not settled if the neighbors are not onboard to 
settle it. But, the reality today, Mr. Chairman, is that 
African leadership is weak. Nigeria is not the same as it was a 
few years ago, when President Obasanjo was active across the 
continent. The new leadership in South Africa may not be as 
committed to Pan-African cooperation as Thabo Mbeki was. And I 
think the reality is, we're going to have to look for 
leadership, and help promote it on the continent.
    Finally, Mr. Chairman, no amount of staffing or structure 
will do if our policies are divided internally. If you look at 
Somalia over the last few years, we've been divided at what our 
policy is. Is it to bomb terrorists? Is it to help create 
stable Government in Somalia? Is it to work with the U.N.? Or 
is it not? With that kind of a divisiveness, we can't be very 
effective in these situations. So, one of the requirements of 
dealing with complex conflicts like this is for leadership, 
from the Department and elsewhere, to bring about unified 
policies, and then back them up with the right structures.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Lyman follows:]

   Prepared Statement of Princeton N. Lyman, Adjunct Senior Fellow, 
              Council on Foreign Relations, Washington, DC

    I welcome this opportunity to discuss the needs for strengthening 
U.S. diplomacy for preventing and/or reducing the impact of conflicts 
in Africa. As members of this subcommittee know well, conflicts have 
taken a terrible toll in Africa, with millions of lives lost, terrible 
human rights depredations, the weakening of authority and governance, 
and the setting back of development for hundreds of millions still 
living in poverty. These conflicts also open the door to criminal 
activities that bear on U.S. interests, as in the case of Somali 
piracy, or interruptions in the supply of energy as in Nigeria.
    At the same time, we need to be aware that the number of conflicts 
in Africa has been dramatically reduced over the past two decades, and 
the lessons of those resolutions are pertinent to the subject today. 
Wars in Mozambique, Angola, Namibia, Liberia, Sierra Leone, Burundi, 
Cote d'Ivoire, and between the north and south in Sudan have been 
brought to a close, some on a promising long-term basis, some with 
fragile peace processes still under way. There are lessons to be 
learned from those processes. Very serious conflict situations remain, 
including in the Democratic Republic of the Congo (DRC), the Darfur 
region of Sudan, Somalia, parts of Ethiopia, the delta region of 
Nigeria, and in both Chad and the Central African Republic. Several 
other countries face internal unrest and potential outbreaks of 
violence, including Guinea, Guinea Bissau, the Comoros, Mauritania, and 
the Casamance region of Senegal.
                   distinguishing the skills required
    Despite the dedicated efforts of many diplomats, envoys, and 
consultants over the past several years, the U.S. capacity to address 
this range of challenges is very weak. Senior officials run from one 
emerging crisis to another--Kenya, Somalia, the DRC--but the ability to 
mobilize and deploy a significant team of experts and resources to 
follow up to address these situations on a consistent and adequate 
basis is often not there. For example, the once significant and 
dedicated team that backed up the negotiations to end the North-South 
civil war in Sudan was disbanded and the capacity lost to competing 
requirements in Iraq and elsewhere. Thus the work of special envoys for 
Darfur has been hampered by inadequate backup capacity in the 
Department and a confusion of roles and responsibilities. Conflict 
management and resolution requires a dedicated effort, with strong 
staff support, ready outreach to a wide number of international actors, 
and strong embassies and other agencies on the ground. We also need to 
remember these are long-term processes. Peace in southern Africa was 
the product of nearly a decade of intensive, well resourced efforts 
throughout the 1980s.
    We need to distinguish here between the diplomatic capacity needed 
to prevent or restrain conflict, including early steps in conflict 
resolution, and that needed to respond to major crises situations. Much 
of the recent writing on conflict diplomacy has related to the latter, 
with proposals for surge capacity in such situations as Iraq, 
Afghanistan, and elsewhere. I applaud those recommendations, and I 
commend to the committee's attention the report of the American Academy 
of Diplomacy, ``A Foreign Affairs Budget for the Future: Fixing the 
Crisis in Diplomatic Readiness,'' October 2008. Included in that report 
are detailed proposals for in-house and reserve surge capacities.
    In Africa, do sweat the small stuff. In Africa, however, we need to 
recognize that there are potential conflict situations spread across 
Africa and involving in some cases quite small countries in which our 
diplomatic presence is very limited. Keeping abreast of those 
situations, and even more, assessing the imminence and importance of 
threatening circumstances, is not easy. For these situations, we need 
embassies with the capacity to tap into and utilize the several highly 
developed IT systems for analyzing potential conflict situations, e.g., 
the Fund for Peace's system for anticipating failed states, Robert 
Rotberg's governance index, Mo Ibrahim's governance index, and other 
such systems. Embassies also need resources to respond early to signs 
of stress, with flexible resources to help in conflict resolutions 
exercises, assistance to weak governing institutions such as the 
judiciary, and to be able to call on AFRICOM for help in training 
security forces. Backup in Washington is essential, with analytical as 
well as bureaucratic skills. Little of that presently exists. If a 
country as large and important as Nigeria has but one person on the 
Nigeria desk, you can imagine the capacity to do serious analytical and 
backup work for the large number of smaller countries of the continent.
    Major crisis situations. The current major crises in Africa--in the 
DRC, Sudan, and Somalia--are exceptionally complex, involving not only 
civil war but a host of regional and international involvements that 
demand virtually worldwide diplomacy to address adequately. One 
standard response to these situations has been (and is now being 
reinvigorated) the designation of envoys. Having a high-level envoy is 
a useful device: It demonstrates serious U.S. concern, brings often 
higher level political attention to the situation, and attracts serious 
responses from other interested countries. But all too often the 
designation of an envoy is a substitute for the hard, long 
institutional commitment to the crisis. Part-time envoys are in 
particular ineffective if their work is not backed up on a full-time 
basis by a team dedicated to that situation, sending out messages, 
monitoring agreements, and doing their own diplomatic outreach. For a 
crisis like that in the DRC, there should be staff as well in each of 
the key European embassies designated as part of this team, keeping in 
close touch on a daily basis with our European partners. That was done 
throughout the southern Africa diplomacy of the 1980s.
    I characterize envoys without such backup as ``going naked into the 
jungle.'' They have neither the capacity nor resources to bring U.S 
influence and resources to bear adequately on the situation.
    With this background, let me address the specific questions raised 
in the invitation to testify.
1. Does the State Department on collaboration with our Intelligence 
        Community, have sufficient capacity to assess the long-term 
        threats on the continent?
    First, we must recognize that there is no sure science to assess 
long-term threats in a timely action-oriented way. It is not hard to 
identify the many potential causes of conflict in Africa, a continent 
with generally weak states, poor governance, poverty, and in particular 
weak institutions to channel political and social grievances into 
peaceful resolution, e.g., Parliaments, courts, police, etc. One could 
find these characteristics in most African countries. But identifying 
in which countries over which timeframe these factors may produce 
crisis or conflict is much harder. Liberia descended into horribly 
brutal civil war in the 1980s, but only after more than 100 years of 
inequitable class rule and general poverty. Mali is one of the poorest 
countries on earth but has a functioning democracy; can it thus manage 
the unrest among its northern Taureg population, egged on to some 
degree by radical foreign elements, or will it suffer a growing crisis 
in this regard? These are hard calls.
    The answer to the question posed by the committee is, of course, 
``No.'' But to counter this on a practical basis, the Department needs 
to access, as recommended earlier, the several computer-based systems 
for identifying potential sources of weakness and conflict. Staff needs 
to be trained in these systems and have the equipment to access them on 
a regular basis. But these only point to the potential causes. Nothing 
takes the place of on-the-ground contacts, sensitivity, and outreach. 
That takes staff, with language skills, travel money, and overcoming 
some of the risk-adverse policies now in place. Finally, to avoid 
having to ``cry wolf'' to seek to engage the attention of the 
Department, embassies in these smaller countries need resources and 
flexibility to address local conditions early without waiting for 
serious conflict to erupt. Those resources today are quite limited.
    The Department does not have to do this alone. There are numerous 
think tanks, universities, and other nongovernmental organizations 
which have the skills and means to assist in these analyses. The 
Department utilizes some of these, some of the time, but not 
consistently and not to study a single problem over a long period of 
time. The early studies by CSIS on Sudan (Barton and Crocker) are an 
exception worth reexamining.
2. Which regions are neglected?
            Somalia
    Up until recently Somalia was badly neglected. But our response 
reveals other weaknesses. United States policy on Somalia, since the 
takeover of Mogadishu by the Islamic Courts Movement in 2006, has been 
divided. On the one hand, there are the diplomatic approaches to the 
situation, fronted by State, led by the U.N. and for a time with the 
support of a multilateral body led by Norway. But within DOD, and 
within parts of State as well, the focus has been on getting at 
terrorists within Somalia. This meant U.S. bombing raids, support for 
the Ethiopian invasion that dislodged the ICM from Magdishu but 
unleashed a long insurgency, and an inconsistent attitude toward the 
moderate Islamists within the Islamist Courts movement. The recent 
focus on piracy could produce a similar divide, but hopefully a more 
comprehensive and well-directed policy will emerge. Without a clear, 
unified policy, lack of capacity is only part of the problem.
    Somalis illustrates another weakness in addressing conflicts in the 
Horn of Africa. Somalia is a Middle Eastern as well as African problem. 
The Africa Bureau, and indeed some of the other diplomatic efforts on 
Somalia, have failed to engage seriously enough key Middle Eastern 
players, such as Saudi Arabia, Qatar, and Yemen whose cooperation is 
essential. The Africa Bureau is not well equipped, bureaucratically or 
with sufficient personnel, to engage the Near East Bureau and other 
elements of the State Department in a high priority regional diplomatic 
effort. Only high-level direction, from the Secretary, can create the 
necessary inter-Bureau structure to address this situation on a 
continuing basis.
            DRC
    While the U.S. has played an important role in helping the eastern 
regional neighbors of the DRC come together and overcome some of the 
proxy warring within the DRC, and has supported financially the U.N. 
force, MONUC, the DRC has not had the focus that it deserves. The DRC 
influences much of central and eastern Africa, and its rich mineral 
resources will always be attractive to outsiders, e.g., neighbors, 
companies, or rogues, and usually all three. The war has also been the 
most costly in terms of lives lost, nearly 5 million. The U.S. has not 
been ready to support a more robust U.N. force, struggling to keep down 
peacekeeping costs, and has not engaged at high levels with the 
relevant players. In large part, the United States has left leadership 
in this conflict to the U.N., South Africa, and the AU, and the 
Europeans. That is not bad but U.S. support to the peace processes 
could be much more vigorous. A new envoy is about to be appointed. But 
the question will be whether this envoy is backed up by real commitment 
of staff, time, and resources, or only sent out to show a U.S. face? 
All too often in the past, this has been the fate of our Great Lakes 
envoys, despite they having been exceptionally dedicated individuals.
            Nigeria
    Nigeria, Africa's most populous country and the fifth (sometimes 
sixth) largest supplier of oil imports to the United States, is going 
through one of its most difficult periods of governance and stability. 
The conflict in the Niger delta has grown steadily more costly, with 
Nigerian oil production reduced by as much as 500,000 bbl/d. Stolen oil 
and other criminal activities finance the importation of ever more 
sophisticated arms by the various militia. Unrest has spread to 
neighboring countries, as militia attack oil facilities and carry out 
kidnapping there. Piracy in the Gulf of Guinea rivals that off the 
Somali coast and endangers the entire Gulf of Guinea oil region.
    Experts disagree whether Nigeria teeters on the edge of breakdown 
or is simply going through one of its many difficult transitions having 
only restored civilian rule in 1999 and being a difficult country to 
manage in the best of circumstances. But the delta crisis presents 
serious challenges and is not being addressed effectively by the 
Nigerian Government. Beyond the delta, the economic deterioration in 
the north, Nigeria's Islamic center, with factories closing and large 
number of unemployed youth, poses long-term threats to stability.
    At present the United States has no presence in the delta, and its 
staff is forbidden to travel there for security reasons. This greatly 
limits U.S ability to assess and impact the situation. The Embassy also 
has no consulate in the north. While vacancies have recently been 
filled, almost all key positions in the Embassy are filled under grade.
    One should recognize that assisting Nigeria in addressing any of 
its issues is not easy. The government has spurned most offers to 
assist with the crisis in the delta, including technical help from 
AFRICOM to counter the illegal oil exports. The economic problems in 
the north and elsewhere are due to long-term neglect of the power 
sector and other infrastructure, the effect of overdependency on the 
oil sector, and various governance problems. None of these are ones 
that the U.S. is in a position to help, except perhaps for advice, 
encouraging of investment, and support through the IFIs. But our 
ability to play even this role is compromised by our lack of outreach. 
In addition, high-level attention to Nigeria, and in particular to the 
problem in the delta has been at best sporadic. AFRICOM has expressed 
the most sustained concern, with visits and offers of assistance. But 
the State Department, taken up perhaps with more immediate crises, has 
not invested heavily in the Nigerian relationship.
            The Sahel
    This region has attracted special attention from DOD, first through 
EUCOM and now with AFRICOM. The concern has been infiltration into the 
region from Algeria's AQIM and the potential of radical elements 
exploiting local grievances. The Trans Sahara Counter Terrorism Program 
(TSCTP) is designed as an interagency, State-led program to address 
this concern. But State has two disadvantages in matching AFRICOM's 
concerns and resources: (a) Neither State nor USAID has sufficient 
personnel or resources to address fundamental grievance issues in this 
area, and (b) while AFRICOM has been effective in bringing north 
African and Sahelian states together in this endeavor, here again State 
has difficulty coordinating across Bureaus. Our counterterrorism 
programs meanwhile risk running against the internal political needs of 
the governments in this region, where sensitive political oversight and 
better resource allocations are needed. Again, too, State and USAID 
lack language skills for engaging the people in the area of most 
concern.
            The Narcotics Infiltration
    If there is one new dangerous crisis in Africa it is the growing 
infiltration of influence, money and power of narcotics syndicates. 
They operate primarily from Latin America, using west Africa as transit 
point for shipping drugs to Europe. In the process, they increase 
addiction in these African states, corrupt governments, and grow their 
role in the local economy. Poor and weak states, like Guinea Bissau are 
prominently affected, but most west African states are involved. A 
similar problem exits in east Africa, again using Africa as transit 
point to Europe with the same corrupting effects. We know from Columbia 
and Mexico just how destabilizing this industry can be. African states 
are poorly structured to address it, and it takes place in some of 
those countries where out diplomatic presence and aid programs are 
small. The way to proceed may be to establish a high-level interagency 
task force, under State leadership, which can work with individual 
embassies and across regional boundaries, set up counter programs, and 
if necessary greatly increase assistance to these states. Mobilizing 
African opinion and support will also be critical. This is an emergency 
and will take much effort to overcome if it can be done in time.
3. How to address security concerns
     As a former Ambassador I am acutely aware of the responsibility of 
every mission to protect its employees and their families. In the 
field, the embassy relies on the assessment of the Regional Security 
Officer in assessing the risks. We should send our diplomats and 
assistance experts into possible danger only where our interests truly 
demand.
    In Africa today, as elsewhere, our interests do demand that we be 
more in touch with a broad array of society. In areas where the danger 
of radical infiltration exits, being able to reach those populations 
involved and assess the reality of the threat is essential. For 
example, without more direct knowledge of the so-called ``ungoverned 
spaces'' in the Sahel, it is hard to assess the seriousness of the 
threat and to see whether our counterterrorism programs are effective. 
In Nigeria, without more direct contact with the areas in which the 
unrest takes place, the United States is not in a position to offer 
more than generalities to the Nigerian Government, and perhaps more 
important, unable to interact with the oil companies, the local 
communities, and local officials, to understand what really is going 
on.
    For these reasons, we need to provide employees with a better 
framework for such activities. We must honestly assess the risks. We 
need to compare our practices with those of the U.N., other countries, 
and NGOs. For example, in Nigeria, many of these entities go regularly 
to the delta. And we should be able to do likewise. However, I suggest 
we not force employees to take such risks, but seek only volunteers for 
such duty. We should also increase language training so that diplomats 
can travel in remote areas with greater interaction with people and 
maneuver better. We also can ask employees (as many now do) to 
entertain more in local restaurants and in their homes, rather than 
meet with counterparts in the rather forbidding surroundings of today's 
fortress embassies.
    We need to ask these same employees to be prepared to manage 
consulates in less than fully secure areas. We need to fashion, with 
Diplomatic Security, the technological and physical arrangements that 
would make such posts relatively more secure, even if far from perfect.
4. Do our Ambassadors have sufficient authority and flexible resources 
        to carry out their mission appropriately?
    Again I would refer the committee to the Academy of American 
Diplomacy report, which details the additional authorities and 
resources needed. Ambassadors need more flexible funds on the ground to 
sponsor better communications within local societies, to provide 
educational and professional travel, and to promote better governance. 
The AAD report recommends in particular that the ``Emergency in the 
Diplomatic and Consular Service'' fund be increased from $5 million to 
$25 million and be used more for conflict prevention than only response 
to crises once they have emerged. Other increases for authorities and 
funds are detailed in the report.
    One difficult challenge is that while AFRICOM can operate across 
regions, like the Sahel, and indeed such regional approaches are 
necessary, Ambassadors can approve or disapprove activities in their 
own countries of assignment, but are not in a position to help shape 
regional programs nor to monitor them. A study last year by the 
National Defense University suggested that in particular where the U.S. 
military is actively engaged, the Department arrange for one Ambassador 
in the subregion to coordinate with his neighboring colleagues, with 
the funds to bring them together, and that Ambassador or the regional 
group have some authority to pass on regional programs operated by 
other agencies. The Horn and the Sahel are good examples of where this 
would be valuable.
5. How can we better engage with regional actors, like Nigeria and 
        South Africa, subregional organizations, and the African Union?
    One of the lessons of the resolution of many of Africa's conflicts 
is that African leadership, or very active involvement, was essential. 
Particularly since the formation of the AU in 2000, African leaders 
have been instrumental in bringing peace to Burundi, the early 
agreements to end the civil war in the DRC, and to fashion efforts at 
creating a government in Somalia. In west Africa, only when neighboring 
states finally came to agreement that the conflicts in Liberia and 
Sierra Leone, in which several of them were indirectly involved, was 
costing them more than they gained, was ECOWAS and its peacekeeping 
arm, ECOMOG able to bring peace to those countries. Indeed in virtually 
every conflict on the continent, both internal and external actors are 
involved, and only agreement by both will bring a conflict to an end.
    Unfortunately, however, Africa currently suffers from a dearth of 
strong and regionally committed leadership in key countries like 
Nigeria and South Africa. Nigeria's Obasanjo, who was personally 
involved in overcoming coups in several west African countries and a 
force behind the forward leaning policies of the AU, has been succeeded 
by a President who is not well, and less inclined to be a major figure 
on the continental scene. Thabo Mbeki is gone from South Africa, 
depriving the AU and Africa in general of a leader who thought long and 
hard about how to advance the continents' own peacemaking and 
peacekeeping capacities and who used South Africa's resources, e.g., in 
Burundi and the DRC, for that purpose. Another formerly leading player, 
especially in the Horn, was Kenya. But Kenya is now absorbed in its 
internal political crisis. The AU has itself suffered from setbacks in 
its peacekeeping operations in Darfur and Somalia. It is questionable 
that the organization will take such forward leaning steps in the near 
future, as it did in Burundi, Darfur, and Cote d'Ivoire, but rather 
look to U.N.- or Western-led operations being initiated first in which 
to participate. For the immediate future therefore we must recognize 
that African leadership is relatively weak.
    Nevertheless, in every conflict situation on the continent today, 
active African participation in both the peace process and possible 
sanctions or peacekeeping is essential. In some cases, however, as in 
Sudan and Somalia, we will need to find a broader regional structure 
than the AU, to bring in Middle East countries as well. The decision to 
establish an Ambassador to the AU was a valuable step and thoughts that 
the position should be absorbed with the Ambassador to Ethiopia would 
be an unfortunate setback. Strengthening the AU's conflict resolution 
capacities, its peacekeeping role, and its progress in implementing 
other reforms as represented in NEPAD, are valuable investments. The 
Ambassador's role might be enhanced, moreover, to take on the role of 
coordinator of U.S. policy in the Horn, along the lines described 
above.
    Among the subregional organizations, ECOWAS stands out for progress 
made in both conflict resolution and peacekeeping. Continued investment 
in it is eminently sensible. SADC will only achieve effectiveness in 
this regard after it resolves the situation in Zimbabwe and perhaps 
reconciles relations more between South Africa and Angola.
    South Africa itself remains key, but with the current economic 
downturn, and the change in leadership, it is questionable how active 
it will be beyond the southern and central region. Yet, the U.S. should 
make a major effort to turn a new page in our relations with South 
Africa following the election there.
    The bottom line here is that African leadership will be less able 
in the next few years. Conflict prevention and resolution will thus 
have to combine African participation along with vigorous outside 
participation. Each conflict will need to be surrounded by a group of 
nearby affected African states, United States and European involvement 
and help, and in several cases like Somalia, heavy reliance and support 
for the convening and negotiating role of the U.N.
                               conclusion
    Comparisons are misleading. Sub-Saharan Africa consists of 48 
states, many weak and most subject to the spillover effects of conflict 
in neighboring countries. Conflicts will be a part of the continental 
scene for decades to come. That is why every Assistant Secretary of 
State for Africa starts out with a broad agenda, of development, good 
governance, regional integration, more trade, and improvements in the 
environment, etc., but spends most of his or her time dealing with one 
crisis after another or more likely several simultaneously. The 
structure of the Africa Bureau, and other support units of the 
Department, do not reflect this reality.
    The Africa Bureau staff is smaller than that of the East Asia and 
Pacific, Western Hemisphere, or the Europe and Eurasia Bureaus. It 
lacks surge capacity, the ability to assemble teams of people to work 
over years on serious, complex conflicts. Where active conflicts do not 
exist, the staffing is thin. There is one desk officer for Nigeria, the 
most populous and one of the most important countries on the continent. 
The Office of the Coordinator for Post-Conflict Recovery and 
Stabilization was supposed to supplement this capacity. It has to some 
extent, but it, too, has been limited, and bureaucratic rivalries have 
further limited its role. If we are serious about conflict prevention 
and resolution in Africa, we have to recognize that this is a labor-
intensive effort, and that the labor assigned to the Africa Bureau has 
to be appropriate to the task.
    Naming special envoys can also be a diversion if not backed up by a 
team of professional staff, with resources and the ability to manage a 
complex diplomatic process on a full-time basis. We should not confuse 
form with substance, nor saddle highly dedicated and competent envoys 
with tasks that are not adequately resourced.
    But no amount of staffing nor resources can make up for competing 
or confused policies. U.S. policy in the Horn has long been pulled back 
and forth between agencies and between elements in State, reducing our 
leverage and confusing both partners and combatants. Our policy in the 
DRC has at times been conflicted between the realities on the ground 
and the desire to protect relations with neighbors who deny their 
involvement. As AFRICOM takes a more active role on the continent, and 
addresses more and more the security issues that affect the United 
States, as it must, the situation cries out for dynamic and broadly 
based leadership from State, at the Washington, subregional, and local 
level. That will take strategic thinking, more and better trained 
staff, and more resources.

    Senator Feingold. Thank you, Ambassador, for your excellent 
remarks, and I certainly appreciate the part about Somalia. I 
have been begging for a policy towards Somalia for years, and 
then people wonder why there's an unstable situation in Somalia 
that can lead to this kind of piracy. The failure to act, a 
failure to have a policy, does have consequences, and we're 
paying the price right now.
    Dr. Wolpe.

STATEMENT OF HON. HOWARD WOLPE, DIRECTOR OF AFRICA PROGRAM AND 
  PROJECT ON LEADERSHIP AND BUILDING STATE CAPACITY, WOODROW 
                 WILSON CENTER, WASHINGTON, DC

    Dr. Wolpe. Thank you very much, Mr. Chairman. And I would 
ask that my testimony be submitted for the record.
    I really welcomed this invitation to testify before your 
committee, and want to particularly commend you on your focus 
on the capacity to defuse or prevent conflicts. We give a lot 
of lipservice to that concept, but we really haven't focused on 
that in a very serious way.
    My reflections this afternoon draw upon the 5 years I put 
in as President Clinton's special envoy to Africa's Great Lakes 
Region, where I was deeply involved in the Congolese and 
Burundi wars and peace processes, and a number of post-conflict 
reconstruction training initiatives in which I've been involved 
for the past several years in such places as Burundi, the DRC, 
Liberia, and East Timor. This combination of experiences has 
led me to conclude that conventional approaches to 
peacebuilding are deeply flawed, because they seldom involve 
direct engagement with the key leaders of the belligerent 
parties, and virtually ignore the mistrust, the suspicions, the 
fears with which they enter the reconstruction process. We 
spend considerable time focusing on structures and institutions 
and establishing a multiparty electoral system, but the 
fundamental challenge of divided societies, such as we face in 
Africa, is not the absence of sufficient competitiveness; 
rather, it is the absence of collaborative capacity. Leaders 
that have been through years of conflict and war simply find it 
difficult to get beyond a winner-take-all, zero-sum mindset to 
identify common interests, or to rebuild the trust and 
relationships required to enable them to work effectively 
together in rebuilding their societies. Yet, our governance and 
peacebuilding programs, such as those administered by NED and 
NDI and IRI and so on, seldom have incorporated strategies or 
processes to build collaborative capacity. As a consequence, 
many peacebuilding initiatives are unsustainable, with 
countries returning to war within a few years.
    From this prospective, let me address, now, some of the 
specific questions that you posed.
    First, with respect to the diplomatic presence and 
resources required to anticipate and prevent long-term threats, 
I would submit that we need a new diplomatic paradigm. We need 
instruments and processes that are less focused on imposing 
Western institutional structures and more directed to assisting 
nationals in divided societies develop a recognition of their 
interdependence and of the value of collaboration, even with 
former enemies.
    Second, the implementation of such a paradigm requires a 
new approach to the training of diplomats. Most diplomats, I 
discovered during my time at State, have little or no expertise 
in the techniques of institutional and conflict transformation, 
and are minimally trained, if at all, as bizarre as it sounds, 
in mediation and facilitation techniques. Diplomats tend to 
think of sticks and carrots, of pressures and incentives, of 
anything that will bring belligerent parties to the signing of 
peace agreements. But if the belligerent parties feel they have 
been manipulated into an agreement, and have little sense of 
their ownership of the final product, the chances for 
sustainability are greatly reduced.
    The leaders of belligerent parties may well sign an 
agreement, but that does not mean that, the day afterwards, 
they see each other any differently than the day before or that 
they are any more prepared to address the issues underlying 
their conflict. In short, if we are serious about sustainable 
solutions, processes that address the mindsets of key leaders 
directly, their fears, their suspicions, their perceptions of 
one another must be seen as a critical complement to 
conventional diplomacy.
    Third, building a more effective approach to sustainable 
peacebuilding requires the development of new partnerships 
between diplomats, on the one hand, and specialists in the 
techniques of institutional and conflict transformation, on the 
other. Diplomats seldom know much about these techniques, but 
they do have access to national leaders, they do understand the 
politics of divided societies, and they do comprehend the 
regional diplomatic environment. Trainers, on the other hand, 
though having the skills required to transform conflictual 
relationships, seldom have access to national leaders, 
generally have little background on the politics of these 
societies, and are generally not conversant with the diplomatic 
environment. In short, trainers and diplomats need each other 
if key leaders are to be drawn into the required training 
initiatives.
    Fourth, one means of building this new synergy between 
diplomats and trainers would be to better integrate the work of 
USAID's Bureau of Conflict Mitigation and Management, the 
repository of most government expertise on conflict 
transformation, with the State Department's diplomatic agenda. 
Moreover, CMM knows the lay of the land with respect to the 
conflict transformation profession. It's best positioned to 
mobilize expert trainers to establish in-country training 
initiatives designed to support our diplomatic objectives of 
assisting states emerging from war or states threatening to go 
to war, to strengthen state cohesion and the collaborative 
capacity of key leaders.
    And fifth, in a somewhat different vein and consistent with 
some of the comments of my distinguished colleagues earlier, 
we're often flying absolutely blind, with little solid 
information about the various military elements involved in the 
conflict or about their role of ethnic diaspora that are 
financing and fueling many of the conflicts in Africa. There 
were, when I was at State, simply too few intelligence assets 
committed to African conflict zones. I'm hopeful, but 
skeptical, that this situation has changed significantly, and 
would argue for the resources required to enable the United 
States Government to develop much more informed diplomatic 
strategies.
    And then, sixth, also, I think, mentioned briefly earlier, 
related to the intelligence deficit, is an extraordinary 
paucity of language skills, particularly African languages.
    Seventh, one of the things that I discovered very directly 
through my experience is the importance of close diplomatic 
coordination with all of the countries engaged in a country's 
peace process. One of the most important developments that 
occurred as we were trying to address both the Burundi and the 
Congolese conflicts was a very close partnership I formed with 
my European Union counterpart, Aldo Ajello. We worked closely 
together, ensuring that we were communicating precisely the 
same message and could not be played off against each other by 
the belligerent parties.
    In addition, regular meetings were established involving 
all of the key international players--the European Union, 
Belgium, France, Canada, the United Kingdom. These meetings not 
only facilitated important information exchanges, but they 
enabled us both to harmonize our messages and to decide on an 
appropriate diplomatic strategy as events unfolded on the 
ground.
    I have some additional comments on special envoys, but I 
would simply associate myself with the remarks made earlier 
about the need to recognize the supreme importance of special 
envoys in multicountry situations, because sitting ambassadors 
invariably end up reflecting the perspective of their own 
capitals. You need someone that's able to have a much wider 
view and is capable of doing the kind of shuttle diplomacy 
required. In addition, that envoy must have the kind of support 
of which Princeton Lyman was speaking.
    Thank you very much.
    [The prepared statement of Dr. Wolpe follows:]

Prepared Statement of Hon. Howard Wolpe, Director of Africa Program and 
   Project on Leadership and Building State Capacity, Woodrow Wilson 
                         Center, Washington, DC

    Mr. Chairman, I welcome the invitation to testify before your 
subcommittee, and commend you for focusing in a timely way on a number 
of issues that are central to America's diplomatic capacity--and 
particularly to our ability to defuse or prevent conflicts within the 
conflict-plagued Africa Continent. My reflections this afternoon draw 
upon my 5 years experience as President Clinton's Special Envoy to 
Africa's Great Lakes Region, where I was deeply involved in both the 
Congolese and Burundi wars and associated peace processes, and a number 
of post-conflict reconstruction training initiatives in which I have 
been involved the past several years--in such places as Burundi, the 
DRC, Liberia, and East Timor.
    This combination of experiences has led me to conclude that 
conventional approaches to peace-building are deeply flawed, because 
they seldom involve direct engagement with the key leaders of the 
belligerent parties, and virtually ignore the mistrust, suspicions and 
fears with which they enter the reconstruction process. We spend 
considerable time focusing on structures and institutions, and 
establishing a multiparty electoral system. But the fundamental 
challenge of divided societies is not the absence of sufficient 
competitiveness. Rather, it is the absence of collaborative capacity: 
Leaders that have been through years of conflict and war simply find it 
difficult to get beyond a ``winner take all,'' zero-sum, mindset to 
identify common interests, or to rebuild the trust and relationships 
required to enable them to work effectively together in rebuilding 
their societies. Yet, our governance and peace-building programs seldom 
have incorporated strategies or processes to build collaborative 
capacity. As a consequence, many peace-building initiatives are 
unsustainable, with countries returning to war within a few years.
    From this perspective, let me now respond to the specific questions 
you have posed for consideration. First, with respect to the diplomatic 
presence and resources required to anticipate and prevent long-term 
threats--and, I would add, to implement post-conflict mitigation, 
recovery, and transformation strategies to sustain peaceful transitions 
to democracy--I would offer the following reflections and 
recommendations:

  <bullet> First, we need a new diplomatic paradigm--one that 
        recognizes that the starting point for preventative initiatives 
        in Africa is a recognition of the divided nature of most 
        African societies. That means we need instruments and processes 
        that are less focused on imposing Western institutional 
        structures than in assisting nationals in divided societies 
        develop a recognition of their interdependence and of the value 
        of collaboration even with former enemies. Such initiatives 
        should be directed at changing the ``winner take all,'' zero-
        game conflict paradigm that characterizes most elite 
        interactions, at building the trust and relationships among key 
        leaders, at building a new consensus on how power is to be 
        shared and organized, and at strengthening the communications 
        and negotiations skills of key leaders.
  <bullet> Second, the implementation of such a paradigm requires a new 
        approach to the training of diplomats. One of the things that I 
        learned during my 5 years at State is that most diplomats have 
        little or no expertise in the techniques of institutional and 
        conflict transformation, and are minimally trained (if at all) 
        in mediation and facilitation techniques. Diplomats tend to 
        think of sticks and carrots, of pressures and incentives--of 
        anything that will bring belligerent parties to the signing of 
        peace agreements. But if the belligerent parties feel they have 
        been manipulated into an agreement, and have little sense of 
        their ownership of the final product, the chances for 
        sustainability are greatly reduced. The leaders of belligerent 
        parties may well sign an agreement--but that does not mean that 
        the day afterward they see each other any differently than the 
        day before, or that they are any more prepared to address the 
        issues underlying their conflict. In short, if they are serious 
        about sustainable solutions, processes that address the mind-
        sets of key leaders directly--their fears, their suspicions, 
        their perceptions of one another--must be seen as a critical 
        complement to conventional diplomacy. In this connection, I 
        welcome the proposal laid out by President Obama in the recent 
        campaign to establish a Mediation Unit at State--that would 
        bring together experienced diplomats and other practitioners to 
        build an inventory of peace-building best practices and 
        ``lessons learned.''
  <bullet> Third, building a more effective approach to sustainable 
        peace-building requires the development of new partnerships 
        between diplomats, on the one hand, and specialists in the 
        techniques of institutional and conflict transformation, on the 
        other. Diplomats, as I have indicated, seldom know much about 
        these techniques, but they do have access to national leaders, 
        do understand the politics of divided societies, and comprehend 
        the regional, diplomatic environment. Trainers, on the other 
        hand, though having the skills required to transform 
        conflictual relationships, seldom have access to national 
        leaders, generally have little background on the politics of 
        these societies, and are generally not conversant with the 
        diplomatic environment. In short, trainers and diplomats need 
        each other if key leaders are to be drawn into the required 
        training initiatives.
  <bullet> Fourth, one means of building this new synergy between 
        diplomats and trainers would be to better integrate the work of 
        USAID's Bureau of Conflict Mitigation and Management--the 
        repository of most government expertise on conflict 
        transformation--with the State Department's diplomatic agenda. 
        Too frequently, however, the work of CMM is viewed as a 
        secondary enterprise, not central to the real work of 
        diplomacy. Yet, nothing could be further from the truth. 
        Moreover, CMM knows the lay of the land with respect to the 
        conflict transformation profession, and is best positioned to 
        mobilize expert trainers to establish in-country training 
        initiatives designed to support the diplomatic objective of 
        assisting states emerging from war, or states threatening to go 
        to war, strengthen state cohesion and the collaborative 
        capacity of key leaders.
  <bullet> Fifth, in a rather different vein, during my tenure as Great 
        Lakes Special Envoy I was struck by how often we were flying 
        blind--with little solid information about the various military 
        elements involved in the conflict, or about the role of ethnic 
        diaspora that were financing and fueling many of the conflicts. 
        There were simply too few intelligence assets committed to 
        Africa conflict zoners; this seemed to be a very low priority 
        for the Central Intelligence Agency. I am hopeful, but 
        skeptical, that this situation has changed significantly, and 
        would argue for the resources required to enable the USG 
        develop more informed diplomatic strategies.
  <bullet> Sixth, and closely related to the intelligence deficit, was 
        a woeful paucity of appropriate language skills. There are few 
        within the U.S. Government that speak indigenous African 
        languages--and when it came to the assignment of defense 
        attaches, several lacked even solid French. This linguistic 
        shortcoming greatly hampered their effectiveness in working 
        with the security branches of the host governments.
  <bullet> Seventh, during my tenure as special envoy, I was constantly 
        reminded of the importance of close diplomatic coordination 
        with all of the countries that were seeking to support the 
        peace process. One of the most important developments that 
        occurred as we were trying to address both the Burundi and the 
        Congolese conflicts was a very close partnership I formed with 
        my European Union counterpart, Aldo Ajello. We worked closely 
        together, sometimes even to the point of making joint 
        demarches. This insured that we were communicating precisely 
        the same message and could not be played off against each other 
        by the belligerent parties. In addition, regular meetings were 
        established involving all of the key international players--
        most notably, the EU, Belgium, France, Canada, and the United 
        Kingdom. These meetings facilitated an important information 
        exchange, and enabled us both to harmonize our messages, and to 
        decide on appropriate diplomatic strategy as events unfolded on 
        the ground. In later years, Aldo Ajello observed that he felt 
        the international effort in the Great Lakes was compromised 
        when the United States did not reappoint a special envoy with 
        whom he could have collaborated.
      Finally, it is well known that the Africa Bureau is severely 
        understaffed. Hopefully, this personnel deficit will be 
        overcome with the contemplated expansion of State Department 
        personnel--but there should be no question as to the importance 
        of this issue. In this connection, I would draw your attention 
        to the report issued on October 8, 2008, by the Stimson 
        Institute and the American Academy of Diplomacy outlining very 
        precise and reasonable staffing increases for State to ``expand 
        the diplomatic toolkit.''

    Let me turn now to the second question the subcommittee has posed--
the role of special envoys, and how they interface with our Embassies 
in the conflict zones in which they are engaged. I would offer two 
principal observations:

  <bullet> First, I would underscore the importance of special envoys 
        in addressing situations involving more than a single state. 
        Sitting Ambassadors invariably come to reflect the perspective 
        of the capitals in which they are based; it is virtually 
        impossible for the Ambassador to Rwanda, for example, to fully 
        comprehend the Kinshasa perspective on the Great Lakes 
        conflict; nor do Kinshasa-based diplomats have a good 
        comprehension of the Rwandan perspective. Special envoys enjoy 
        the unique position of being able to view and understand a 
        conflict from all perspectives--thereby enabling the 
        development of a much more balanced and nuanced diplomatic 
        strategy. While Bureau heads in Washington do develop a broader 
        view of conflict dynamics, they simply have too much on their 
        day-to-day bureaucratic plate to undertake the required on-the-
        ground diplomatic engagement.
  <bullet> Second, it is important, in my view, for special envoys to 
        work very closely with the various Embassies within their area 
        of responsibility--to insure that the sitting Ambassadors are 
        fully in the loop, and that there are no misunderstandings or 
        mixed messages. I always made it a practice to have the sitting 
        Ambassadors or Embassy political officers accompany me to my 
        meetings. Then, at the conclusion of a national visit, the 
        Ambassador would often host a gathering of the locally based 
        diplomatic community where I would provide a full debriefing on 
        the meetings I had held. This helped significantly to build 
        trust between the Embassies, and to harmonize both analyses and 
        messages.

    Finally, the subcommittee has asked me to comment on what Embassies 
might do to strengthen their information-gathering function.

  <bullet> Successful political, policy, intelligence and 
        representational functions of an American Embassy are dependent 
        on the officers of that Embassy--the Ambassador, the DCM, the 
        political and economic councilors and their staff officers--
        understanding the politics, economies, cultures and histories 
        of the countries in which they serve. This can only be done 
        adequately if those officers get to know the leaders and the 
        people of their host countries. The relationships need to be 
        structured on the basis of openness and frankness, based on 
        mutual respect and trust, or they result in diplomats being 
        told what the nationals think they want to hear, rather than 
        what is their true situation. These relationships can only 
        develop from extended and egalitarian interactions with the 
        community. Of course, there are security constraints these 
        days, with Embassies and American diplomatic communities in 
        some instances being restricted to almost ``fortress'' like 
        existences behind secure walls and armored cars. Special 
        efforts need to be made to get beyond and outside of these 
        fortresses, both physical and conceptual.
  <bullet> During my diplomatic tenure, I was struck by the great 
        variation between Embassies in the amount of political outreach 
        that is undertaken. Some Embassies were outstanding in insuring 
        that the Ambassador and political officers were fully engaged 
        with diverse constituencies. This is very much a function of 
        the leadership provided by the Ambassador. The best Ambassadors 
        placed special emphasis on reaching beyond the often closed 
        circle of the diplomatic community, as much as security 
        concerns allowed, to mix professionally with the host 
        communities and, as a part of that, to engage in broad social 
        intercourse, which is often the foundation for good political 
        contacts.
  <bullet> I was also struck by the tendency of Embassies to develop 
        capital-centric perspectives. It is especially important, to 
        counter this natural tendency, for Embassy officials to travel 
        outside of the capital, to engage rural constituencies, and to 
        reach out to opposition and unofficial elements.
  <bullet> Finally, as discussed earlier, Embassies are often hampered 
        by very limited intelligence assets--and some of these 
        deficiencies in the allocation of both human and technical 
        resources need to be corrected--especially in volatile, 
        conflict-sensitive areas. This will greatly strengthen the 
        over-all diplomatic capabilities of our Embassies.

    I hope these reflections have been helpful, Mr. Chairman. I look 
forward to any questions you might have.

    Senator Feingold. Thank you, Dr. Wolpe.
    I want to thank all the panelists. This truly--as I know my 
colleagues know--is a very distinguished panel.
    And I want to thank my colleagues for such excellent 
attendance at this hearing. We're all very busy, but this is a 
great showing. And, of course, I'm delighted my colleague 
Senator Kaufman is here. He's new to the Senate, but not new at 
all to this committee and these issues; he knows them very 
well. And, of course, Senator Lugar, the ranking member of the 
full committee--no one in the Senate has devoted more effort 
and time to these issues of diplomacy and trying to solve these 
problems.
    So, I thank you all for being here. And I will start with a 
round--7-minute rounds. And we can do more, if people want.
    Ambassador Pickering, picking up on the American Academy's 
paper you mentioned, one of the challenges we face is that some 
in the Foreign Service do not believe that spending large 
amounts of time on a difficult post in Africa will advance 
their careers. How can we restructure the incentive and support 
system to encourage diplomats to go to places like Chad or 
Sierra Leone, both countries that are obviously hardship posts?
    Ambassador Pickering.
    Ambassador Pickering. Thank you very much, Mr. Chairman.
    I've never believed that the material rewards in the 
Foreign Service, were the overwhelming incentive. What was an 
important incentive, I think, for all of us was the fact that 
you had a tough job, and you had an opportunity to do it very 
well. In that sense, Africa is a collection of tough jobs.
    And I had the pleasure and honor of having 8 years of my 
career in Africa, in three different jobs, two in the Foreign 
Service and one in the military. My sense was that it was those 
difficult and challenging jobs that gave you the opportunity, 
particularly as a young officer, to show what you could do, and 
that, while it was a kind of make-or-break challenge in some 
instances, it also helped to speed advancement and move things 
ahead. So, very early on I volunteered for Africa. There was an 
excitement about what was going on in Africa in the 1960s. That 
quickly turned to crises after crisis, as we all know. That 
challenged me and many of my friends and colleagues. And I 
think we all benefited, to some extent, by being tested early 
and tested often, if I could put it that way.
    To deal with the problems of the Foreign Service, in terms 
of compensation, it is a travesty, Mr. Chairman, that right now 
the pay system, which, in effect, provides locality pay for the 
Civil Service, which is much deserved, has now undermined the 
Foreign Service's special provisions to pay extra amounts for 
people who serve in dangerous places. So it is now much more 
lucrative to serve in Washington than it is in Ouagadougou. And 
to get people, particularly in their final years, when they are 
building their highest 3-year salary for their pensions, which 
is very important, to serve overseas in challenging places 
means that we have to change. We have to make the base pay for 
the Foreign Service the pay that people receive in Washington 
in total, and then to calculate the allowances that deal with 
danger and special circumstances, and all the other issues that 
you all know so well about, as being on top of that. We've all 
got it all, now, backward. It's not the fault of anyone, but it 
is, frankly, if I could be a little bit direct, in your hands.
    Senator Feingold. Fair enough. Very helpful comment.
    Ambassador, let me continue with you. One of the issues 
that I have repeatedly discussed in my travels throughout 
Africa, and even other parts of the world, is something you 
certainly alluded to, the Chief of Mission authority. I'm 
concerned that this authority has eroded, limiting the ability 
of our ambassadors to fully oversee and coordinate U.S. 
activities in their own countries that they're in charge of. 
And I'd be interested to know your thoughts on how we can 
restore the Chief of Mission authority and ensure that it is 
upheld by all U.S. agencies.
    Ambassador Pickering. Yes, and I am happy to address that. 
The authorities began by being set out by President Kennedy in 
a letter to ambassadors. That practice has died out. And so, 
sometimes that letter came in the 8th year of an 
administration, sometimes it didn't come at all. So, the first 
thing I suggested to you in my testimony was that President 
Obama craft an Executive order that will sustain itself across 
administrations, and put into that all of the best statements 
that his predecessors have included with respect to the role of 
the ambassador. I think that that's extremely important.
    The second point I made was that the ambassador is in 
charge, except for the forces under a combatant commander, and 
that's the kind of Afghan-Iraq situation. And there are good 
reasons for that. But, nowhere has anybody sat down and defined 
how those individuals relate to each other, when they're 
centrally important. The military cannot do it alone; it needs, 
in fact, the knowledge, experience, and backup of civilians in 
their special skilled areas, whether it's humanitarian 
assistance or regular diplomacy, to get all kinds of jobs done. 
And so, in fact, we have to look at that universe, Mr. 
Chairman, and work out how those things should be worked.
    I, for one, would strongly favor, in the early days of a 
military intervention, which, as you know, I believe has to be 
the absolute last resort, that the military commanders should 
be in charge, but be advised closely by the Ambassador. Now, 
many of my friends would consider that a travesty. But, it has 
to move over fairly quickly when it begins to appear that we 
have to do the civilian jobs in order to make sure that the 
sacrifices the military made have continued meaning and 
importance, in terms of the national interest in that country. 
And my feeling is that unity of command is worth the sacrifice, 
particularly because we have seen, in many occasions, good 
ambassadors and good military commanders know how to get along 
together. Bad ones ought to be changed.
    Senator Feingold. Very good. Thank you, Ambassador. And 
I'll come back to you later.
    I want to get started with Ambassador Lyman, by asking you 
about the Washington side of this discussion. You've spent a 
lot of time working in and with the Africa Bureau at the State 
Department. You mentioned, in your testimony, it's one of the 
smallest regional bureaus, and it's been under capacity for a 
long time. In your view, how can we rebuild and reenergize the 
Africa Bureau so it's not, as you pointed out, simply 
responding to the crisis of the moment and putting out fires?
    Ambassador Lyman. Thank you, Mr. Chairman.
    I think there are several things to do. As I mentioned, 
that you have to assume that there's going to be conflict as 
part of the agenda for any administration dealing with Africa. 
It isn't the only agenda item, by any means, but it's an 
important one.
    And we need to construct, either within the Bureau or in 
support from an office like the Coordinator for Post-Conflict 
Reconstruction and Stabilization, teams of conflict resolution 
and conflict-addressing experts who will work within the Bureau 
to backup any sustained peace effort in which we're involved. 
And that team has to be allocated to the Bureau, has to be 
available, and it has to be available as long as necessary, 
which may mean for several years.
    So, in the case of Sudan, we should have a team that's 
working constantly on the range of issues which are 
interrelated--that includes the CPA, on the one hand, and 
Darfur, on the other. And we need the same for the Great Lakes 
Region, and backing up that diplomacy.
    The second important requirement is to deal with what I 
call the ``cross-Bureau problem,'' in the Horn, crossing the 
Africa Bureau and the Near East Bureau--and the same is true in 
the Sahel--and having the Secretary direct that there be 
creative joint structures that deal with these areas, and give 
them the priority that they need. Quite frankly, the Africa 
Bureau doesn't have the clout, alone, to command the attention 
on the Middle East policy makers, and it needs that if you're 
going to deal with the Horn or you're going to deal with the 
problems of the Sahel.
    The third requirement--and it is in the recommendations of 
the the Foreign Affairs Budget Report that Ambassador Pickering 
talked about--is for specific authorities and funding that 
could be given to missions--and by that, I mean both embassy 
and USAID missions--so that, on the ground, they can be working 
to deal with a whole range of problems that are not going to 
get the attention from the Assistant Secretary, but can prevent 
a lot of the conflicts from growing larger. There are tools for 
that if the authorities, funding, and training are made 
available.
    And the last would be to draw on the kind of expertise that 
Howard Wolpe talked about; that is, the Department needs the 
funding and the willingness to bring to bear expertise that's 
outside the Department. I find the Intelligence Community does 
this a lot. I've been to more intelligence conferences over the 
last few years than I've been to State Department conferences, 
and it's because the intelligence community does that all the 
time. And I think the Department could do much more in bringing 
skills to bear that it does not have in house.
    Senator Feingold. Thank you, Doctor. I will come back to 
you and to--excuse me--Ambassador and Dr. Wolpe, I'll come back 
to you later.
    Let me just tell you how delighted I am to hear you talk 
about the interrelationship of Africa and the Middle East. I 
have been trying to talk about this, for years. You almost 
never hear it. All you have to do is listen to the statements 
of al Qaeda, and their strategy, and you realize they're 
thinking that way. Why aren't we? Why are we incapable of 
understanding that interconnection and not focusing on it?
    Ambassador Pickering. Could I make a brief point on that--
--
    Senator Feingold. Very quickly.
    Ambassador Pickering. [continuing]. Mr. Chairman.
    Senator Feingold. I ought to----
    Ambassador Pickering. I'll be very quick.
    Senator Feingold. [continuing]. Yeah----
    Senator Isakson. Go right ahead.
    Ambassador Pickering. Over the years, Turkey was seen as 
preeminently the same problem that Ambassador Lyman described 
for the Horn of Africa. Over the years, at least some people 
instituted a view that no policy recommendation with respect to 
Turkey could come forward without full consultation with the 
Middle East Bureau, and, when we had a separate Bureau for 
Russian and Soviet Affairs, without that Bureau being involved.
    Senator Feingold. Very good. Thank you.
    And Senator Isakson.
    Senator Isakson. Well, thank you, Mr. Chairman. And, you 
know, following up on that series of comments: I was sitting 
somewhere, watching television last week, when it was announced 
that Somalia had adopted Shari'ah law, and it occurred to me at 
that minute, the tie that you're talking about, the Middle East 
and the Muslim faith in that part of the world, as far as 
that's concerned. So, I--the light bulb just went off, and, in 
listening to them talk, that it is important to get the Africa 
Bureau and the Mid-East Bureau coordinating on Somalia, where 
we have had no policy since Mogadishu, I guess, of any 
consequence, I think that comment's outstanding.
    Mr. Wolpe--is it ``Dr. Wolpe''?
    Dr. Wolpe. Howard.
    Senator Isakson. Professor? Howard? [Laughter.]
    Howard, let me ask you this question. You were special 
envoy for 7 years----
    Dr. Wolpe. Five years.
    Senator Isakson. [continuing]. 5 years. Chairman Feingold 
and I wrote President Obama in February 2009, urging him to 
appoint a special envoy to the Sudan, which he did, and we met 
with him a few weeks ago. I am extremely concerned with what's 
happeneing in Darfur, what appears to be the ineffectiveness of 
the African Union troops to protect the NGOs, to deliver the 
humanitarian aid. As a special envoy, I didn't think that Mr. 
Williamson, who I think was the previous----
    Dr. Wolpe. That's right.
    Senator Isakson. [continuing]. Special envoy, if that's 
correct, ever seemed to get the response that he appeared to me 
to be asking for, so we need to give General Gration, in my 
opinion, who is this new special envoy, that type of a--
support. What type of support did you get when you were a 
special envoy?
    Dr. Wolpe. When I was a special envoy, I had, basically, 
three staff working with me--support staff, and then two 
colleagues of mine, one in Washington and one that was usually 
in the field with me. And that was very helpful. What I found 
enormously frustrating at times was, we were in the middle of 
two wars that involved nine countries, and there was, at times, 
urgent need for some shuttle diplomacy between capitals. And to 
try to do shuttle diplomacy by commercial aircraft in Africa is 
a challenge, to say the least. There were a couple of instances 
in which we were able to get the White House to make available 
one of the defense attache planes in the region, but I cannot 
tell you the numbers of times we were restricted in what we 
could accomplish because we just did not have access to the 
players. And that was ridiculous. To me, that was more 
important, in some ways, than the kind of staffing.
    Now, as we look forward to the Great Lakes or to the Horn, 
you've got to look at these issues, not only in terms of the 
immediacy of helping to stop the conflict, but also the longer-
term perspective of putting in place economically integrated 
regions; for example, in Central Africa. At the end of the day, 
the only hope for smaller countries, such as Burundi or Rwanda, 
is to become part of a large economic region. We need to begin 
to help the states of the region begin to talk about building a 
new security architecture. That applies to Sudan, as well as 
others. And that requires a set of experts and advisors that 
ought to be available in support of the special envoy as we 
craft policy and initiatives in the region.
    Senator Isakson. Thank you very much. I know the comment 
was being made about attracting people to Africa to serve the 
State Department there. I think one of the things that has made 
that somewhat difficult has been the lack of infrastructure the 
State Department has at these posts. I know my visit to 
Equatorial Guinea a year and a half ago, the Embassy had a 10-
foot hole in the roof, and the Chinese, two blocks down the 
street, were building what had to be a $4 or $5 million 
Embassy. I think we've got to invest more in the 
infrastructure, and, for that matter, the transportation 
infrastructure, because it is difficult to get around.
    Ambassador Pickering, you made reference to a $250,000 
account, which I took to be a discretionary account for the 
Ambassador to use to facilitate helping with problems within 
the country they're designated to. Is that--does that exist 
anywhere else in the State Department?
    Ambassador Pickering. It exists, in the present format, at 
$25,000 level, and has for many years. And, in fact, we now see 
the state of the world, the conditions that prevail, the 
difficulties of failed and failing states, and the needs, have 
all changed radically. And while $25,000 was seen as a way, 
maybe, to deal with the leading edge of an earthquake--a small 
one, I have to add--none of that is, as we know, in this day 
and age, adequate to do anything. In some cases, when 
ambassadors have used the full extent of the money, it has 
seemed so paltry and so cheeseparing that, in fact, it has 
subjected us to ridicule rather than to the generosity that was 
intended behind the effort to give the ambassadors on the spot 
the ability to respond immediately. Obviously, there are some 
crises that are in the $25,000 category still, but the notion 
is that we, as a great country, would be seen to be able to 
respond rapidly and intelligently, and I think, over the years, 
this money has been used with care. I have not seen comments 
from Hill staff or from the Hill that somehow ambassadors have 
abused this authority. And that's quite important, because you, 
sir, and I, know the degree to which contingency funding is 
treated, up here, as something that nobody would like to touch. 
In effect, of course, we have it in very large amounts in the 
money we appropriate every year to AID to deal with 
international crises. And, to some extent, I think we have now 
built, I hope, a modicum of trust between the Hill and the 
executive branch on these issues, and obviously you approve all 
the ambassadors here in the Senate, so we should have a basis 
for going ahead that I hope can help to move this.
    Obviously, our first job is to convince the present 
administration to propose to you that change. We haven't been 
able to do that yet, but this is early days. But, my hope is 
that that will come, and that can involve a number of kinds of 
activities, from immediate relief of populations in emergency 
circumstances, to evacuations where that is necessary, to 
further involvement in all kinds of things that would not be 
available because the other, regular processes take too long.
    Senator Isakson. I was thinking, as you said that, when we 
provided the PRTs in Iraq with the funds for a combination of 
microloans and ultimately what became the $3 a day to The 
Awakening, we turned the paradigm of the entire conflict, and 
then our troops performed magnificently. So, that's pretty good 
evidence that some discretionary money at the right place, or 
the right crisis can make a world of difference in a very 
underdeveloped part of the world.
    Ambassador Pickering. It is, Senator Isakson. It's also 
clear that the commanders Emergency Response Program for 
military commanders has shown how those kinds of programs can 
be very successful in difficult situations in the field. And my 
feeling is that we, of course, need that on the civilian side, 
as well, because, in fact, on the civilian side they're 
supposed to be handling the bulk of those programs around the 
world.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Feingold. Thank you.
    Senator Kaufman.
    Senator Kaufman. I'd just like to comment on that. I just 
returned from Pakistan and Afghanistan, and the CERP funds are 
incredibly helpful. And they're dispensed by the Department of 
Defense, but they're primarily for the nonmilitary part of the 
counterinsurgency. So, they're basically things that State 
Department should have. We think it's important to do it in 
places like that, I think it's important to do elsewhere. So, I 
think the extent of the CERP funds makes a lot of sense.
    In my travels in Africa, it seems to me the biggest problem 
we have is corruption. I mean, it--you know, it just kind of 
eats away at everything we're doing.
    The strength of U.S. diplomacy to anticipate, prevent, and 
respond to conflict in Africa seems, the prevention part--if we 
could do something about corruption in Africa, it would go a 
long ways toward preventing these things. Do you have any ideas 
of how, diplomatically, we can improve our ability to deal with 
corruption?
    Ambassador Lyman. Let me try and deal with that, Senator. 
And you've put your finger on a terribly, terribly critical 
problem. I think there are several ways in which we can be 
helpful.
    One is promoting a free press and civil society, because 
it's only by putting a spotlight on it and getting political 
pressure on it that you make some headway in that regard.
    Second, we have to be honest about prosecuting Americans 
and getting our European friends to prosecute Europeans who 
provide some of the bribes, because that clearly has been one 
of the things that undermine things in South Africa, European 
arms manufacturers that were at the heart of that big bribery 
scandal.
    I think, also--and I'm hoping this will be a theme of this 
current administration--that President Obama will make that a 
major part of his outreach to Africa. He talks a lot about 
personal responsibility, and I hope he will say that to the 
Africans, that we'll be looking for African countries who are 
responsible, and their leaders are responsible.
    I think the Millennium Challenge Account works well in this 
regard, because it sets up criteria very specifically with a 
corruption threshold and says, ``Countries that do well, we 
will reward.'' I think that's an important element to retain in 
the AID program.
    And then, as I--I think, in general, promoting the 
democratic institutions, the checks and balances, the--getting 
parliaments to stand up and be stronger--those are the 
elements, because it has to come very much within the country. 
But, I think we can do a lot to encourage that.
    Senator Kaufman. Yes.
    Dr. Wolpe. Could I just add a----
    Senator Kaufman. Sure.
    Dr. Wolpe. [continuing]. Just add an additional point? I 
would agree with everything that Ambassador Lyman has offered, 
but I would make one other point.
    From my perspective, the corruption ought to be perceived 
more as a symptom than as a cause. It is fundamentally 
symptomatic of this lack of cohesion, in most African states 
and societies, in which everyone is existing in a world that is 
seen as a zero-sum game, winner take all, and in which all your 
political actors--and the classic case is Mobutu's Congo--are 
acting as individual entrepreneurs, where the state is seen as 
the means to wealth, and there is no sense of their--of the 
value of collaboration with others who they see as potential 
competitors. So, to the extent we can begin to strengthen state 
capacities and cohesion by helping folks involved in these 
divided societies recognize their common interests, see 
themselves as interdependent, recognize the value of 
collaborating with others as a matter of strengthening their 
own self-interest, I think you'll begin to see a diminution in 
the levels of corruption.
    Corruption occurs primarily between people of different 
groups, not from one's--not within one's own family or 
traditional structure.
    Senator Kaufman. Ambassador Pickering.
    Ambassador Pickering. I would pick up on what both 
Princeton and Howard have had to say, and I agree with them 
all. I think that we need to help Africans begin to address the 
question of totally inadequate compensation for responsible 
jobs. I can remember, when I was in Nigeria, that customs jobs 
were auctioned off at huge prices, but only for a year at a 
time, because that was all that they were prepared to rent 
those jobs for. And I think that's important.
    I think, second, over the years, we have had experience in 
dealing with very difficult criminal problems in foreign 
countries, where we are able to get people to step forward in 
law enforcement and go through a vetting process and stay as a 
cohesive unit to deal with that issue; the Mafia in Sicily was 
one example of that.
    And, third, judiciary. It will not work, in fact, if the 
judiciary is bought and paid for, and that comes with the 
immunity that you buy through the corruption operation. It just 
becomes a kind of continuous cycle. So, we also have to, I 
think, work very hard to get courts that are responsible, that 
can deal with cases of prosecution, and people know that there 
is a penalty. At the moment, most of these people enjoy no 
sense that there is any penalty for involving themselves in 
corruption. As Howard said, it merely is a way, from their 
point of view almost legitimate to advance their livelihoods, 
their families, and their futures.
    Senator Kaufman. I'd just like to associate with Mr. 
Lyman's comments, and maybe someday we can have a hearing on 
the press in Africa and how we get a free press, because I 
think that's a secret to ending corruption, if we have a free 
press, and I think it's incredibly important, and free press is 
dying in Africa, right across the continent.
    Let me just ask you a point that you raised, Ambassador 
Pickering, but it goes to all things, and that is this whole 
problem between outreach and security. I mean, this is really--
we are closing down our outreach opportunities, here. Is there 
anything--any hope you can give--I know our ranking member has 
spoken, and has a bill, which I've cosponsored on how to deal 
with the libraries, for instance--is there any--can you give us 
any hope on how we deal with this--I mean, just hunkering down 
and not having outreach just doesn't seem to me to be the way 
to behave, but I also am concerned about security. I'd like 
someone to, you know, help me.
    Ambassador Pickering. Senator, in my prepared remarks, and 
in my oral remarks, I think, given before you had a chance to 
join us, I talked about, in public diplomacy, some serious 
steps that we recommend--100-percent increase in visitor 
programs, and so on. I think that's important. We--I also, in 
the prepared testimony, noted that we need to do cultural 
centers once again, that we need to do all kinds of exchange 
programs, and that one of the proposals is that--we privatized 
our cultural centers in Latin America, they now need public 
support to come up to standard. These kinds of things, of 
course, have been thought of and have been worked on, and I 
would not slight the past administration for totally ignoring 
them, but they need to be regenerated and strengthened, in my 
view, to get precisely at that outreach program.
    Over the years, I think all of us have enjoyed working with 
foreign officials who were educated in the United States, who 
knew the United States. Now, some turned sour, but they were a 
tiny percent, and the others were remarkably good to work with. 
They understood us, they understood our national objectives, 
and they understood our national principles, and they respected 
them, in the main, and they were there for colleagues and 
friends rather than, necessarily, opponents. They didn't sell 
out their country, but they were looking for the best possible 
joint deal.
    Senator Kaufman. Great.
    And, Mr. Chairman, I want to thank you for holding this 
hearing. I think this has been excellent.
    Senator Feingold. Thank you very much, Senator Kaufman.
    Senator Lugar.
    Ambassador Lyman. I just want to add one thing to 
Ambassador Pickering's excellent point, because--and all of us 
have experienced this--the outreach that you get through both 
cultural and public diplomacy is extraordinary valuable. It is 
not just opening up lines of better appreciation of the United 
States, but it allows you to help people be exposed to 
different ways of approaching problems. And no one knows that 
better than Senator Lugar. During that period when we were 
working to see the end of apartheid, and those negotiations 
were going on, having it under then-USIA, the resources to say 
to South Africans engaged with various issues, e.g., federalism 
which was a divisive issue in the negotiations, ``Here's how 
you might deal with the federalism issue, here's an opportunity 
to study the experience with it in the U.S. and other 
countries.'' In other cases, to make available experts. 
Flexible resources like that, just opened up lines of 
communication and exchanges of ideas, for them and for us, that 
were indispensable.
    Senator Feingold. Senator Lugar.
    Senator Lugar. Well, I thank the chairman and ranking 
member for this remarkable hearing. I just have appreciated so 
much the testimony. I remembered a presentation given by the 
Peruvian novelist Vargas Llosa over at the Woodrow Wilson 
Center about 20 years ago, which was important for those of us 
who heard it, because it was sort of the advent of all of the 
United States interests in elections in Central America. Vargas 
Llosa, as a novelist, was giving us insights into the history, 
the prejudices, the passions, all the conflicts that were a 
part of that situation which did not fit very neatly with any 
of our classical democracy situations.
    I also thought of it when we had a hearing here on Sri 
Lanka which demonstrated very sharp opinions and a concern 
about American diplomacy. As you pointed out, Dr. Wolpe, 
perhaps American diplomats in those situations really need to 
have business managers, development experts, people involved in 
the intelligence services, and as Ambassador Pickering has 
indicated a team of people. I wouldn't call them fixers, or 
manipulators. They would understand, really, how the fabric of 
that particular society has any hope of reconciliation and what 
kind of concessions are going to have to be made.
    We have many Senators coming and going from Afghanistan and 
Pakistan who often come back and say, ``This is really bad.'' 
They don't say ``hopeless.'' We have a situation in which we're 
grinding our way to something that might be called stability, 
and that somehow or other the insurgents are going to be chased 
down so that they're sort of out of the picture, and the 
question then is whether Pakistan can remain stable in that 
process. With Afghanistan, in which even more work and effort 
has been made, but no one really has a very good fix on how 
many or what kind of personnel are going to be required.
    I'm encouraged that our National Guard is now sending out 
agricultural personnel, farmers who are members of the National 
Guard in Indiana and elsewhere, who are actually--know 
something about agriculture. They're out there rather 
inconspicuously working their way though too few numbers. As 
many have noted, we have people who are pretty good in 
reconciling others, doing the tradoffs, and bringing about 
stability.
    This leads to my question. What happens if, after the 
contribution of our troops and our funds, countries I have 
mentioned and countries in Africa come to a result that many 
Americans, looking at liberal democratic traditions, say, 
``This isn't exactly what we had in mind. As a matter of fact, 
we think there are some deficiencies, in terms of civil rights, 
human rights, maybe women's rights, education, ignored in all 
this. Even though it is stable and people may have stopped 
fighting the question then will be, ``Is this going to be 
acceptable?'' In other words, one problem the Ambassador has in 
representing the President now is that he sort of has to say, 
``Well, this just isn't good enough, or, this really isn't 
democracy, or, as a matter of fact, you're violating what most 
Americans think is very important.'' How do we bring about the 
evolution of situations in which the fixers, the development 
experts, the intelligence community bring stability without, at 
the same time, violating our own general principles?
    Dr. Wolpe. Senator Lugar, that's a fascinating question, 
and an enormously difficult one. I'd like to use, if I may, 
though, an analogy to some of the work I've done elsewhere, 
because, in some ways, we were facing the same kinds of issues. 
For example, when we launched a training program in Burundi, I 
had approached the World Bank--this is after I left the State 
Department--and suggested to the bank that we try something 
new, because they had had a peace agreement there, but no one 
thought the agreement would stick. There was so much paranoia 
on all sides, and so many suspicions. And so, we decided to 
identify key leaders within the society. And we had Burundians 
make that identification; we didn't make the selection. And 
when they came up with about 100 leaders that represented all 
the different sectors, there were some of these guys that had 
done violence to everything we Americans would have subscribed. 
They had done some terrible deeds earlier, were responsible for 
some terrible human rights violations. And I was warned by 
former diplomatic colleagues of mine not to involve them in our 
process of building collaborative capacity, of training for 
collaborative capacity, because they would only undermine what 
we were doing.
    Well, but when I saw both Hutu and Tutsi, in the instance 
of----
    Senator Lugar. Yes.
    Dr. Wolpe. [continuing]. The warlord equivalents in 
Afghanistan--but when I saw both Hutu and Tutsi, the enemies, 
the rebels, and the government, identify the same people as 
folks who could--were key to Burundi's future--they could 
undermine it very easily--we made the decision to invite these 
guys into the process. And it was the best decision we ever 
made, because it turned out that what was driving these guys' 
extremism and some of the bad things they had done was their 
extraordinary insecurity, fear, and stereotypes they had of one 
another. And once we could break through that, and they began 
to look at each other in a different fashion, as individuals, 
not seeing each other out of their ethnic or political lenses, 
then when they sat down to construct solutions to the problems 
that they faced in common, the environment, the context, the 
ambience of the entire process was dramatically transformed.
    At the end of the day, it seems to me we have two choices. 
One is, we have to recognize that we cannot impose 
institutional frameworks and solutions on others. If they don't 
buy those solutions, they're never going to be sustainable, 
they're going to be undermined. So, that's No. 1.
    Second, if they end up with a solution that we're not 
comfortable with as Americans, then we can always take the 
position, ``We can't deal with you.'' I mean, it's just as 
simple as that. ``In terms of our national interest, we cannot 
have the kind relationship we'd like to have, unless X, Y, or Z 
changes.'' But, then that's their decision to make, in terms of 
the value--the extent to which they value our relationship.
    So, I do think we need to separate out the peacebuilding 
reconciliation task, on the one hand, from some of these other 
judgments that need to be made subsequently about 
accountability, about justice, and about the nature of the 
relationships we need to forge with these countries.
    Senator Lugar. My time's up, but I would just comment, I 
think the explanation made is very important, and we have a 
responsibility, as Senators or members of the House or what 
have you, to understand enough of this to be able to explain 
some of this to our constituents, to the press at home, as 
opposed to getting on a high horse, becoming so moralistic that 
we it's impossible for any of this to succeed----
    Dr. Wolpe. I agree.
    Senator Lugar. [continuing]. Which could undermine, then, 
whatever the diplomacy is we're involved in.
    Dr. Wolpe. Exactly.
    Senator Lugar. Thank you.
    Senator Feingold. Thank you, Senator Lugar.
    I'll start a second round, start with Ambassador Lyman.
    As you pointed out, I think the lack of capacity has been 
one of the reasons we've had to rely so heavily on the use of 
special envoys. But, I think until we rebuild that capacity, 
we'll continue to need these envoys to bring high-level and 
consistent attention to a crisis. As you look back at the last 
few decades and the range of envoys that have been used in 
Africa, what lessons can be drawn, in terms of effectiveness, 
and what recommendations would you give to the Obama 
administration as it deploys special envoys in Africa?
    Ambassador Lyman. Thank you, Mr. Chairman.
    I think appointing a special envoy can be an 
extraordinarily special contribution, because it puts a 
spotlight on the issue and it shows that America has a special 
concern with it. But, I think it only succeeds if it's backed 
up by a serious policy with resources and staff and a 
diplomatic outreach.
    As I mentioned, when Senator Danforth took on the task of 
Sudan, the North-South peace process, he had a very strong team 
behind him, working with him, available to go to Khartoum when 
he wasn't able to, to reach out. I watched that same strategy 
during the 1980s, when Chet Crocker was doing Southern Africa. 
He had a team of 10 people working with him day and night for 8 
years. On the other hand, if you have a special envoy and there 
isn't strong backing from the Department, and if there isn't a 
unified policy that that envoy is carrying out--look, in Sudan 
we have a tough time right now, because what do we do about 
President Bashir, and the ICC indictment, and how do we balance 
our outrage at what's going on in Darfur with the need to get 
him to be part of the peace process? That takes a lot of 
delicate, careful diplomacy. It has to be unified, has to be 
unified between Ambassador Rice in New York and the State 
Department so that the envoy is working with strong support all 
around and there isn't a lot of backbiting. I won't go into 
detail, but I know of two envoys in the last few years who had 
more problems with the Department than they had with the people 
they were dealing with abroad. I think that it is important 
that the policy be clear and the envoy is given that authority 
and backing to do it.
    Senator Feingold. Dr. Wolpe, in your written testimony you 
mentioned there are simply too few intelligence assets 
committed to African conflict zones. I certainly agree with 
that, not only from my work on this committee, but on the 
Intelligence Committee. How specifically could the intelligence 
community better support the State Department's efforts at 
conflict prevent and peacebuilding in Africa? And what kind of 
information is most needed?
    Dr. Wolpe. Well, you're dealing with conflict, you 
certainly want to know about the military capacities and the 
internal operations within the military forces that are 
involved. When we were dealing with the Burundi conflict, as an 
example, we were flying really blind with respect to what was 
happening either inside the military or inside of the rebel 
organizations that were being financed and supported from the 
diaspora scattered throughout Kenya, Tanzania, Europe, Canada, 
and America. And we pleaded constantly to try to get some 
commitment of resources to work with those communities. What 
was even more shocking at times was when we had--occasionally 
had some defense attaches assigned who sometimes did not even 
speak French, much less the indigenous language, and therefore 
were extraordinarily limited, in terms of their ability to work 
closely with the militaries with whom they were associated. So, 
these are the kinds of things that ought to change, and that 
just require a commitment to begin to hire folks that speak the 
languages, that are located where the conflicts are ongoing, 
and that are--have access to folks that are relevant to those 
conflicts.
    Senator Feingold. Doctor, you've talked----
    Ambassador Pickering. Can I make a brief point, Mr.----
    Senator Feingold. Oh, please.
    Ambassador Pickering. [continuing]. Chairman?
    Senator Feingold. Yes, Ambassador.
    Ambassador Pickering. We're into ``envoyism,'' 
``envoyitis.'' And it's extremely important that we recognize 
that these folks, for reasons that Princeton Lyman related 
early on, can make a real contribution, because, in fact, they 
can bring in multiple aspects of a particular problem and help 
to synthesize that, develop policy, lead the policy, and move 
back and forth. But, we need to be careful at both ends; and 
let me describe what the ends are that we need to be careful 
about.
    We need to be careful that, in an area like the Middle 
East, where we have several envoys at work, we don't, in fact, 
destroy one set of policies by being ``superjihadi'' on another 
set of policies. Someone has to deal with the relative 
priorities and the rough interrelationships that take place, 
particularly around a very delicate situation like Iraq. And 
this is very important. And I think people understand that, but 
carrying it out is a lot harder than understanding it.
    At the other end, you do not want to destroy your 
ambassadors. Your ambassadors are there all the time, they 
understand what goes on. They can help the envoy, they can fill 
in the gaps. They know the players, and, in some cases, they 
have great trust and confidence in moving the question ahead. 
And so, it has to be a team effort, top to bottom and, if I 
could put it this way, sideways, in order to make it happen. 
And envoys are not the sovereign answer to all difficult 
problems, they represent a very, very useful tool. But, it has 
to operate with the rest of the toolbox, it can't operate 
entirely alone and in an individual way that undermines our 
other national priorities.
    Senator Feingold. Ambassador, that certainly rings true, in 
terms of the experience I had in Djibouti in trying to meet 
with the different Somali groups, and then seeing our 
Ambassador to Djibouti, our Ambassador to Kenya, and thinking 
about how this all works together.
    Did you have another comment, Doctor?
    Dr. Wolpe. I did say something about this in my written 
testimony. What Ambassador Pickering says is so very important. 
And one of the ways that I, as a special envoy, dealt with that 
problem that was to constantly ensure that the ambassador was 
always attending the meetings that I attended within the 
country, so there was never any sense of the ambassador being 
undercut.
    The other thing that would usually happen is, the 
ambassador would then host a meeting for all the diplomats in 
the area, after every one of my special envoy visits, in which 
the entire diplomatic community would be brought abreast of 
what was happening. And that really helped to coordinate, 
reduce tensions, and create a sense of unity.
    Senator Feingold. You even did that when a Senator and a 
U.N. Ambassador showed up when you were there, as I recall. 
[Laughter.]
    You've talked and written a lot----
    Dr. Wolpe. I recall that.
    Senator Feingold. Doctor, you've talked and written a lot 
about the need to promote reconciliation and build 
collaborative capacity. And I, of course, agree that it's 
critical to creating lasting peace in many divided African 
societies, but there's also a need for accountability and 
breaking patterns of impunity. I'd like to know how you think 
this fits within our efforts to defuse and prevent conflicts.
    Dr. Wolpe. The issue of justice and accountability has been 
very much central to both the conflicts in which I have been 
involved. That issue has been present in Congo, in Liberia, and 
in Burundi. There is no issue that is more difficult, in the 
final analysis, to address than issues of justice, impunity, 
and accountability.
    I would argue, as someone who's been involved in the 
peacebuilding side of this equation, that sometimes the effort 
to move quickly to accountability and judicial determinations 
of who was responsible for terrible earlier deeds can undercut 
the peacebuilding process. My experience has been that the 
stronger the political accommodation is, through the 
reconciliation process, the less insistent are the belligerent 
parties to find mechanisms of judicial accountability for past 
deeds. They want to move on to the future. They're still 
interested in truthtelling, so truth and reconciliation 
commissions become very much part of the dialogue, but if you 
try to move to justice and accountability prematurely, you can 
end up with a situation where one person's justice is seen as 
the other person's vengeance.
    So, I would argue that you definitely first need a 
political accommodation. The South African experience that 
Ambassador Lyman helped to navigate is classic here, where 
there were some decisions that were made to permit some 
amnesty, to permit various kinds of mechanisms that would allow 
the peace process to go forward before you moved into some of 
the harder questions.
    Senator Feingold. Not unlike some conversations we're 
having domestically. [Laughter.]
    Senator----
    Dr. Wolpe. Yes.
    Senator Feingold. [continuing]. Isakson.
    Senator Isakson. Thank you.
    Mr. Lyman, you--I think it was your testimony about the 
narcotrafficking and the narcosyndicates in Africa. Is the 
source of the narcotics--are they grown in Africa or are they 
coming out of the Middle East?
    Ambassador Lyman. They're actually coming from two 
directions. On the west coast they're coming from Latin 
America. These are largely, if not entirely, Latin American 
syndicates. They are moving the narcotics from Latin America to 
Africa to Europe--Europe is the market. And it's a very big 
business, and it's growing very rapidly.
    And the amount of money involved with--when you're dealing 
with very poor, very weak governments, like Guinea Bissau, is 
enormous. There are areas of Guinea Bissau that are virtually 
owned by the narcosyndicates. There are whole neighborhoods in 
Dakar that are owned by the narcosyndicates.
    On the east coast of Africa, the drugs are coming from 
Asia. They're not grown very much in Africa. Africa is a 
transit point, a trading point, for most of this. The 
vulnerability of Africa to this kind of insidiousness is 
extremely great. The traffickers team up with other forms of 
criminality, with corruption and undermine governance. It is 
one of the most serious problems we're facing in Africa now, 
and it's growing.
    Senator Isakson. I assume, then, Africa is to Europe what 
Mexico is to the United States. Is----
    Ambassador Lyman. Yes----
    Senator Isakson. [continuing]. That----
    Ambassador Lyman. [continuing]. Exactly.
    Senator Isakson. [continuing]. Fair analogy?
    Ambassador Lyman. Exactly.
    Senator Isakson. But, none of the Afghanistan poppy or 
opium is coming into Africa or----
    Ambassador Lyman. It is coming through East Africa. There 
is a similar, if not quite as well-developed--but, similar 
narco business coming in to East Africa. Now, one new drug that 
is being now manufactured in Africa is meth. I don't know the 
full long----
    Senator Isakson. Methamphetamine.
    Ambassador Lyman. That, I understand, is being manufactured 
in east and southern Africa.
    Senator Isakson. And that's worse--that's the worst of all 
of them.
    Ambassador Pickering, I was very proud of the decision that 
the President made regarding Captain Phillips' capture by the 
pirates off the coast of Somalia. And from listening to all 
three of your testimonies related to Somalia, I am assuming 
that the piracy is a reflection of the lawlessness in the 
society of Somalia. Is that correct?
    Ambassador Pickering. I would say yes and no. Of course 
lawlessness plays a very significant role, but--few people have 
mentioned it, but at least there is some serious evidence that, 
with the disappearance of governance in Somalia, the distant 
water fishing states exploited the economic zone, and literally 
vacuumed it so that traditional Somali fishermen had no more 
occupation. And obviously with the free gun trading that went 
on in Somalia, they turned their skills to other purposes.
    So, my own view is that, not only do we need effective 
naval enforcement, but we also need two other programs, which 
will sound totally contradictory, but are very important. We 
need--and not only to convoy, in my view, in the major shipping 
routes, ships out in the Gulf of Aden, away from the Somali 
coast, but we also need to put naval forces in a place where we 
can block exit and entry, to the greatest extent possible--we 
know it's porous--and then we need to begin to establish food 
aid, because these people have no substantial way of feeding 
themselves. And over a period of time, my own view is that we 
should keep foreign fishermen out of the Somali economic zone, 
and we should begin to train and move Somalis back into the 
fishing business, if that's where they're prepared to go and 
that's how they want to deal with themselves. And it sounds 
contradictory, but, in my view, we've got to look at the 
problem from its various facets and move it ahead in that 
direction, otherwise there will be an endless, I think, 
exploitation of lawlessness for these people to continue to 
find new ways to go further and further at sea with motherships 
and all the other things that we have seen that's developed 
into this effort. And I think we have to do this jointly. And 
in order to get the authorities, my view is, we probably go 
back to Security Council, which seems to be willing to help, 
and get the authorities that are necessary to do these various 
things that have to be done.
    Senator Isakson. So, the Somalia waters were overfished, 
and therefore, the fishermen didn't have any jobs, so they----
    Ambassador Pickering. That's what I have----
    Senator Isakson. [continuing]. Went to piracy?
    Ambassador Pickering. [continuing]. Been told. And that may 
not be the total story. We all know there are other pieces. 
These are complicated things. But, it's a piece we shouldn't 
ignore. Right now, of course, it's the total demonization of 
Somali pirates for what they've done, and they justly deserve 
it, but it wasn't necessarily just the free availability of 
weapons and ammunition that put them in that position.
    Senator Isakson. So, you would do two things. One, you 
would convoy the traffic going through the Gulf of Aden. Would 
you do that? And you refer to the Security Council under the 
under the auspices of the U.N., or would you--how would you do 
that?
    Ambassador Pickering. If we think we need authorities to do 
that--you can't force people to come into convoys, but I would 
say--it's 500 miles between the outlet of the Red Sea and 
Sockotra Island, around which you could then send vessels south 
and be way offshore in--off Somalia. And my own view is--that's 
a day and a half, 2 days, of reasonable shipping. There are 
21,000 ships a year that make that trip. That would produce 
significant convoys. I think you'd need, one, well-equipped 
naval vessel with drones and helicopters and night-vision 
devices to protect them. But, I think people would take 
advantage of that. And someone even suggested you should charge 
a small fee that you could pay for the food program. I don't--
you know, there are all kinds of things that are there. The 
rest of it, I think you have to use your naval forces to keep 
others out of the fishing zone and do everything you can to 
keep Somali pirates in port to enforce this. And then, I think 
you should begin the food program.
    Senator Isakson. Thank you very much.
    Yes, sir.
    Ambassador Lyman. Can I add just----
    Senator Feingold.lease.
    Ambassador Lyman. [continuing]. Something----
    Senator Isakson. Sure, Ambassador, go ahead.
    Ambassador Lyman. [continuing]. To the very good proposals 
from Ambassador Pickering?
    There's a lesson in the Somali situation, and you learn it 
also in the Niger Delta situation. If you leave a situation 
long enough in chaos, criminality takes over and it becomes 
much more profitable to be a criminal than to do something 
else. And we see that with the militias in the Delta of 
Nigeria. And then it's hard to turn people around and say, 
``Well, gee, why don't you go back and do something other than 
that?''
    But, there is one other aspect of the Somali situation, in 
that the piracy has become a big enough business that it's 
being backed by some pretty significant businessmen. The Somali 
business community is a very significant community. They don't 
all live in Somalia. And the U.N. envoy Ould-Abdallah has, 
several times, reached out to them to try to get them to 
support the peace process. I think, in connection with what 
Ambassador Pickering has been talking about, about 
alternatives, one needs to reach out to that community and ask 
them where they're putting their money and whether they can put 
their money into something different than some of them are 
doing in the piracy area.
    Senator Isakson. Dr. Wolpe.
    Dr. Wolpe. I would agree with everything that's been said, 
but there's one additional point, I think, that needs to be 
emphasized, given the debate that's taking place at least 
within the media about where our policy should go. Right now, 
as has been suggested, what we're seeing is basically criminal 
activity with economic roots. It would not be difficult to 
suddenly politicize what is now a criminal enterprise by 
beginning to act in an indiscriminant way, militarily, in ways 
that would only alienate the larger Somali population. I think 
we have to be very careful and be much more nuanced and 
discriminating in the way we approach that.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Feingold. I want to just finish by following on 
what you just said in this excellent conversation. This may be 
not the precise topic of this hearing, but--we have this kind 
of talent in front of us, so I want to pursue this Somalia 
thing a little more.
    Yes, there are Somalia businesspeople. I met with a number 
of them in Djibouti; in fact, a whole lot of them are in 
Wisconsin and Minnesota. [Laughter.]
    We have the largest population there, and this is a 
constituent matter, as well as a matter involving our relations 
with Somalia and the threats. And I did hear the excellent 
suggestions with regard to the water, and how we can protect 
the water. But, the fact is, apparently, according to public 
reports, that, when the Islamic Courts had control, that the 
piracy was significantly down. Now, this is not an endorsement 
of the Islamic Courts or of Shari'ah law, although there's 
Shari'ah law and there's Shari'ah law. There is a Shari'ah law 
that might be put forward by the TFG versus the Shari'ah law 
that the al Shabab might put forward.
    So, my concern about all of this conversation, not just 
today, but in general, ever since this piracy incident, there 
seems to be almost a reticence to talk about this nascent 
government that's attempting to bring everybody together in 
Mogadishu. When I was in Djibouti in December, I met with 
Sheikh Sharif. I had no idea that he was going to end up being 
the president. I did know that he had been, as I understand it, 
in charge of the Islamic courts. But, here I was in the 
American ambassador's home, meeting with him, so I obviously 
assumed that we had concluded he is not necessarily one of the, 
quote, ``bad guys.'' All right. So, we've had all this going 
on, and I sent a letter to the President asking, why is it that 
the President hasn't reached out to him? Why is it that 
Secretary of State hasn't reached out to him? Maybe there's a 
good reason. Maybe it wouldn't be good for them. Maybe it 
wouldn't be good for us.
    But, I fundamentally believe that understanding, of course, 
the issues relating to the fisheries and the availability of 
that--that the idea of an inclusive government in that area 
would be about the best way to solve this problem instead of 
having to police the water. So, I may be wrong about this, but 
these are the facts that I've been studying very carefully the 
last couple of months.
    I'd like each of your reactions to this question: What 
level of diplomacy, of contact by our government, would be 
appropriate at this time with this nascent government?
    Ambassador Pickering.
    Ambassador Pickering. I guess I'm of the school that says 
that you've got to deal with the people who are out there and 
who can affect the outcome, and that diplomacy is a very useful 
tool. You cannot do it without some leverage and without some 
influence, and we obviously do not want to, in a sense, ennoble 
and crown people who have been, in effect, the progenitors of 
terrorism there and around the world. We want to find a way to 
block that. And so, I think you need careful study as you move 
ahead.
    You need to know and understand what direction this 
particular issue can take. And my own view would be that I 
would start low-level contacts first, and see if you can begin 
to define, and define which way this process will go. But, to 
leave it in a diplomatic vacuum, in a diplomatic black hole, is 
aserious mistake. I think we need to be----
    Senator Feingold. Well, we're already doing that. 
Certainly, you can't call them low-level contact, as our 
ambassadors are--I met with----
    Ambassador Pickering. Yeah.
    Senator Feingold. [continuing]. Two ambassadors, and with 
Mr. Sharif.
    Ambassador Pickering. Yeah.
    Senator Feingold. What about our--I mean, if that's 
occurred, based on your assessment, is it time for a higher 
level contact?
    Ambassador Pickering. I don't think it's time for a higher-
level contact, and I don't think enough of the other has 
occurred yet, but I could see it leading to the high-level 
contact.
    Senator Feingold. All right. Ambassador Lyman.
    Ambassador Lyman. I think that we have to see--one thing 
is, this is still a very fragile process being led by the U.N. 
I think we could give more support to the UN envoy's diplomatic 
effort. He's been out there almost alone working on this with 
very mixed support, and he is knocking himself out to do it. 
And I think we can lend support to that process, watching it, 
as Ambassador Pickering says, to see if the new president is 
capable of bringing a broad group together. It's not clear the 
government has the outreach yet, but I think supporting that 
diplomatic effort is extremely important, because it's reaching 
out to a different constituency than the al Shabab.
    The other possibility here is also to be in touch with 
others, in different parts of Somalia, who are not part of the 
government, but who are not part of al Shabab either, and 
seeing whether one can make contact with them and encourage 
them to separate themselves more from the more extremist 
groups, and maybe eventually look toward a much more federated 
agreement in Somalia. But, we haven't clarified where we are on 
all these things, and I think we need to do so and let the U.N. 
know where we stand, and act on it.
    Senator Feingold. And, of course, this is why, also in 
these meetings, I met with the leaders of Somaliland, and we 
did that. But, Ambassador, what about the Secretary of State or 
the President having some direct contact with Mr. Sharif?
    Ambassador Lyman. I think it's not necessary, at this time, 
if we send a strong signal through our ambassadors in the field 
that we're supporting the U.N. diplomatic effort. At this 
point, I think that already would give strong support to the 
government, and then let's see how strong and well received 
this government is, because if it has no real support anywhere 
in Somalia, then you don't want to waste the Secretary's 
credibility. I think his government has potential, but we 
haven't seen it really prove itself.
    Senator Feingold. Well, my judgment, having followed this 
country for 17 years--you gentlemen have followed it longer 
than I have--but, for some time, is that this is a much more 
promising and believable group of people that are more 
inclusive. So, I'm interested, finally, in Dr. Wolpe's 
response.
    Dr. Wolpe. Well, I share your view about that potential. I 
think it's important also to recognize that we, in some ways, 
are a little bit handicapped in our approach to Somalia because 
of the earlier bombing activity, because of identification with 
the Ethiopian incursion into Somalia. There are others that are 
somewhat better positioned than the United States right now, 
such as the Norwegians, who were playing a major role in the 
earlier diplomatic effort, in partnership with the United 
States at that time, that I think ought to be in the lead, in 
some respects. I'm not sure that we're, at this stage, that 
well positioned to play a very dominant role.
    Senator Feingold. The only thing I'd say back to that is, 
it's precisely because of the perception of what we did, vis-`-
vis the Ethiopian invasion, and the perception of what we've 
done, that makes it a higher obligation for us, I think, to 
show a support for this kind of a government----
    Dr. Wolpe. That----
    Senator Feingold. [continuing]. If possible, because we 
need to dispel the notion that we don't want them to succeed.
    Dr. Wolpe. Well, I----
    Senator Feingold. Fair enough?
    Dr. Wolpe. Fair enough.
    Senator Feingold. All right.
    On that note, I want thank the ranking member and 
everybody, and that concludes the hearing.
    [Whereupon, at 4:03 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
